<html>
<title> - BEST BUSINESS PRACTICES FOR SECURING AMERICA'S BORDERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
         BEST BUSINESS PRACTICES FOR SECURING AMERICA'S BORDERS

=======================================================================


                                HEARING

                                 of the

                   SUBCOMMITTEE ON INFRASTRUCTURE AND
                            BORDER SECURITY

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2003

                               __________

                           Serial No. 108-20

                               __________

    Printed for the use of the Select Committee on Homeland Security




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________



                 U.S. GOVERNMENT PRINTING OFFICE

98-523                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001













                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, Jr., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff
         UTTAM DHILLON, Chief Counsel and Deputy Staff Director
               DAVID H. SCHANZER, Democrat Staff Director
                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                     DAVE CAMP, Michigan, Chairman

KAY GRANGER, Texas, Vice Chairwoman  LORETTA SANCHEZ, California
JENNIFER DUNN, Washington            EDWARD J. MARKEY, Massachusetts
DON YOUNG, Alaska                    NORMAN D. DICKS, Washington
DUNCAN HUNTER, California            BARNEY FRANK, Massachusetts
LAMAR SMITH, Texas                   BENJAMIN L. CARDIN, Maryland
LINCOLN DIAZ-BALART, Florida         LOUISE McINTOSH SLAUGHTER,
ROBERT W. GOODLATTE, Virginia          New York
ERNEST ISTOOK, Oklahoma              PETER A. DeFAZIO, Oregon
JOHN SHADEGG, Arizona                SHEILA JACKSON-LEE, Texas
MARK SOUDER, Indiana                 BILL PASCRELL, JR., New Jersey
JOHN SWEENEY, New York               CHARLES GONZALEZ, Texas
CHRISTOPHER COX, California, ex      JIM TURNER, Texas, ex officio
officio

                                  (ii)
















                            C O N T E N T S


                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................     1
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas, and Vice Chairwoman, Subcommittee on 
  Infrastructure and Border Security.............................    44
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Committee
  Oral Statement.................................................     3
  Prepared Statement.............................................     1
The Honorable Benjamin J. Cardin, a Representative in Congress 
  From the State of Maryland.....................................    44
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     5
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    48
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    46
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................     5

                               WITNESSES

Mr. W. Scott Gould, The O'Gara Company
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. B. Jeffrey Katz, Vice President of Marketing, Atmel 
  Corporation, San Jose, California
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Captain Houssam Salloum, President and CEO, Axiolog
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Richard Stephens, Vice President and General Manager, 
  Homeland Security and Services, The Boeing Company
  Oral Statement.................................................     6
  Prepared Statement.............................................     9














                      BEST BUSINESS PRACTICES FOR



                       SECURING AMERICA'S BORDERS

                              ----------                              


                        WEDNESDAY, JULY 23, 2003

                     U.S. House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 345, Cannon House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] presiding.
    Present: Representatives Camp, Dunn, Granger, Sanchez, 
Markey, Dicks, Cardin, Slaughter, Jackson-Lee, Pascrell, and 
Cox, ex officio.
    Mr. Camp. The hearing will come to order. This is a hearing 
of the Select Committee on Homeland Security, Subcommittee on 
Infrastructure and Border Security. The subject is Best 
Business Practices for Securing America's Borders.
     I want to thank our witnesses for coming. You may have 
heard the bells. We have a series of votes that have been 
called, so I think what we will do--I have been talking to the 
ranking member, Ms. Sanchez--we will recess the meeting. It may 
be a little bit of time, but with your patience, we will come 
back and begin the hearing then. It could be as long as half an 
hour. There are several votes that are being called.
    We will recess the hearing, and be back as soon as we can.

PREPARED OPENING STATEMENT OF THE HONORABLE CHRISTOPHER COX, CHAIRMAN, 
               SELECT COMMITTEE ON THE HOMELAND SECURITY

    Good Morning. I would like to thank Subcommittee Chairman Camp, and 
Ranking Member Ms. Sanchez, for holding this hearing on ``Best Business 
Practices in Securing America's Borders.'' I am pleased that the 
subcommittee has taken the time to recognize and discuss this important 
issue and I look forward to hearing the testimony of the upcoming 
panel.
    Of the myriad challenges facing the Department of Homeland 
Security, finding a balance between securing our borders from 
terrorists and allowing the cultural, educational, and financial 
enrichment that healthy partnerships with other nations provides, is 
among the most challenging. Historically, one of the United States' 
greatest assets has been the freedom with which commerce and people 
have been able to cross our borders. Our policies of the past have 
helped foster a prosperous and symbiotic relationship with the rest of 
the world and have helped export the values and message of American 
democracy.
    Unfortunately, the very ease with which people and commerce enter 
our country puts Americans at risk from those who would wish to harm 
us. As we found out in the months since September 11th, 13 of the 19 
hijackers had entered the United States legally with valid visas. Of 
the 13, three of the hijackers had remained in the United States long 
after their visas had expired. This condition highlighted the systemic 
weakness of our border security infrastructure and the need to reform 
the broken system.
    Our border security efforts cannot focus solely on preventing would 
be terrorist from entering the country, but also must keep dangerous 
materials from being smuggled across our borders. While weapons making 
their way into the country can be used to carry out attacks against our 
citizens, the sale of drugs is also a homeland security threat because 
the profits of those illegal sales can be used to finance other 
criminal actions such as terrorist groups.
    Emerging technology and better business practices are our greatest 
assets in the fight to improve security without stifling the legitimate 
flow of people and goods vital to our economy. New technologies are 
already being utilized to address weaknesses at our borders by 
screening individuals who seek to enter the country, and managing the 
information we have about potentially dangerous individuals.
    However, it is the job of this Committee and the Department of 
Homeland Security to seek further improvements and identify best 
business practices that will continue to improve our nation's security 
without sacrificing our economic growth or our way of life. I look 
forward to hearing from our panelists, about how they are working to 
develop new technologies and procedures that will make our country 
safer.
    Chairman Camp, thank you again for your leadership on this issue 
and for arranging this important hearing.

    Mr. Camp. The hearing will come to order.
    I would like to again welcome and thank everyone for 
attending today's hearing and apologize for the delay because 
of the votes.
    The Subcommittee on Infrastructure and Border Security will 
hear testimony from four representatives in the private sector, 
Mr. Richard Stephens from Boeing, Dr. W. Scott Gould from The 
O'Gara Company, Captain Houssam Salloum from Axiolog, Inc., And 
Jeffrey Katz from Atmel.
    Your experiences in the private sector and expertise in 
homeland security technology make your testimony valuable as 
the subcommittee continues to look at ways to strengthen 
America's border defenses. Today's hearing will examine the 
progress being made by the Department of Homeland Security in 
securing our land and maritime borders, with special focus on 
efforts to utilize the technology and skill from the private 
sector. The witnesses will evaluate programs and policies such 
as the Customs-Trade Partnership Against Terrorism, CTPAT; the 
Container Security Initiative, CSI; and Fast and Secure Trade, 
FAST, as well as provide an overview of available technology.
    There has never been a more compelling time for our Nation 
to be educated on the threats and vulnerabilities that 
terrorists pose to our borders, and how technology can serve as 
a force multiplier in detecting, deterring and denying 
potential terrorist activities.
    In the post-9/11 environment, guardians of our Nation's 
borders must plan for a continuous security life cycle. They 
must recognize security postures can no longer remain static 
and they must dynamically evolve to meet prevailing threats. As 
threats change, new vulnerabilities are exposed, and newer 
mediation programs must be implemented and continually updated.
    The United States shares long and large borders with Canada 
and Mexico, and a very large maritime border of shoreline and 
navigable waterways. All people and goods legally entering the 
United States must be processed through an air, land or sea 
port of entry. An enormous volume of trade also crosses our 
borders every day. Some 1.35 trillion imports and 1 trillion 
exports were processed in 2001.
    The global trading system is increasingly relying on the 
swift delivery of goods produced overseas. America's economic 
stability requires that goods and people cross through our 
borders and in and out of the country regularly without long 
delays. Our security also requires that we know who and what is 
entering.
    The Customs-Trade Partnership Against Terrorism was 
designed to enhance supply chain security. It partners the 
Bureau of Customs and Border Protection with the trade 
community to strengthen our borders while facilitating the 
efficient flow of commerce. Under this initiative, Customs will 
work with importers, carriers, brokers and other industry 
sectors, emphasizing the need for a seamless security 
environment throughout the entire commercial process.
    We have a number of initiatives that have been put in 
place, and I look forward to hearing from our witnesses. I hope 
we will come away from this hearing with a better understanding 
of what enhancements can be made to utilize the benefits of the 
private sector and learn what steps are being taken 
independently by the security community to strengthen our 
border defenses.
    I now recognize the chairman of the full committee Mr. Cox 
for any opening statement he may wish to make.
    Mr. Cox. Mr. Chairman, I thank you for convening this 
hearing, and Ranking Member Sanchez as well, who I am sure will 
join us shortly. The votes have just concluded on the floor.
    I am very pleased that the subcommittee has taken the time 
to hear from experts on this important issue. I look forward to 
hearing from our witnesses this morning. I want to thank you 
for making time to be with us and bearing with us during an 
uncertain floor schedule this morning.
    Of the many challenges facing the Department of Homeland 
Security, none is more difficult than resolving the tensions 
between the simultaneous American goals of security and 
openness. Following the tragedy of September 11, President Bush 
stressed the need for America to strengthen our security to 
prevent another terrorist attack, but he also stressed that we 
must protect the freedoms that define American democracy, 
including the freedom to travel and conduct commerce across our 
borders. We export not only goods and services, but we also 
export and must continue to export American values. American 
values bring hope to other people around the world.
    Unfortunately, one of our commercial and, if you will, one 
of our idealistic strengths, the very ease with which we can 
move about the world and with which people can move into our 
country, puts Americans at risk from those who would do us 
harm. As we have learned since September 11, 13 of the 19 
hijackers had entered the United States legally with valid 
visas. Three of those had overstayed their visas substantially; 
they remained in the United States long after their visas had 
expired. That condition highlighted the systemic weakness of 
our border security infrastructure and the need to reform the 
broken system.
    The creation of the Department of Homeland Security was a 
major step in integrating the Nation's security efforts to 
improve overall safety by putting all agencies responsible for 
protecting our homeland under one command with a shared sense 
of mission. The former INS, the Border Patrol, Customs and 
certain elements of the Department of Agriculture merged to 
form the new Bureau of Customs and Border Protection within 
DHS.
    This merger marked an historic moment. For the first time 
in our Nation's history, one Federal agency, working hand in 
hand with the Coast Guard, is now responsible for guarding 
America's ports and our borders.
    While we are focused on our borders today, let me say a few 
words about our related programs on ports. Prior to September 
11, port security involved routine waterborne security patrols 
and a limited number of container inspections. These were 
focused mainly on HAZMAT violations. September 11 forced 
Congress, the Coast Guard, port authorities, State and local 
officials and the shipping industry to reevaluate.
    We have refocused and we have developed programs to improve 
the way in which our ports are secured. While we still have 
challenges ahead, we are doing more and better than ever 
before. The President's Container Security Initiative, for 
example, deploys Customs and Border Patrol officers to stations 
overseas. By pushing out our perimeter, we can intercept 
efforts by terrorists to exploit containerized shipping.
    Since the Initiative's launch over a year ago, 20 of the 
world's megaports have agreed to join CSI and are at various 
stages of implementation. These megaports, being points of 
passage for approximately two-thirds of containers shipped to 
the United States, are vitally important to our security.
    While we have a long way to go, we are also making progress 
on border security, the focus of our meeting today. As Chairman 
Camp stated, our Nation shares over 5,500 miles of border with 
Canada and nearly 2,000 miles of border with Mexico. Nearly 500 
million people cross the borders into the United States each 
year. Facilitating the legitimate travel and business for those 
people is as critical to our way of life as is preventing 
would-be terrorists from entering the country.
    The Bureau of Immigration and Customs Enforcement and the 
Bureau of Customs and Border Protection have been formed to 
ensure that these dual missions are rigorously pursued. They 
are using promising new technologies to facilitate the entry of 
legal residents and identify those who pose potential threats 
to our country.
    Additionally, the United States is expanding programs and 
partnerships with the private sector such as the Business Anti-
Smuggling Coalition, the Customs-Trade Partnership Against 
Terrorism and Mexico's Compliant Importer-Exporter Program by 
developing high tech, dedicated travel lanes which will be made 
available only to those large firms willing to dedicate extra 
resources to securing their shipments to the United States.
    The Department of Homeland Security also is working with 
the Department of State on the Visitor and Immigrant Status 
Indicator Technology, the U.S. VISIT program, at air and sea 
ports of entry, which is designed to collect information on the 
arrival and departure of most foreign nationals to determine 
whether they should be allowed entry into the United States, 
whether they can change their immigration status, or whether 
they have violated their visa status.
    Incorporating advanced technologies into our security 
systems, training our security personnel and using intelligence 
to target our security efforts are central to the success of 
protecting our borders. The expansion of current programs and 
the development of new processes will take time, to be sure, 
and we must anticipate more bumps in the road; but I am 
confident that following President Bush's leadership, we will 
get to our destination of an America safe from terrorism and 
secure in its freedoms.
    I thank our chairman for his commitments and our ranking 
member for holding this hearing and for summoning these 
impressive witnesses.
    Mr. Camp. I thank the chairman of the full committee.
    The Chair now recognizes Ms. Sanchez, the ranking Democrat 
member, for any statement she may have.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Obviously, this is the Subcommittee on Infrastructure and 
Border Security. We have often heard that over 80 percent of 
the infrastructure that terrorists might be interested in sit 
in private hands in this country. What we are hoping to hear 
today from you is some of the technology that we could use and 
some of the solutions that we might have to protecting that 
infrastructure.
    We recently took a congressional delegation trip, headed by 
Mr. Cox, out to the Los Angeles-Long Beach area, where we took 
a look at port security and a nuclear power plant, both things 
in my area. It becomes pretty evident that we need to be 
working together because the slowdown, in particular for 
example, of cargo and container traffic through a large port 
like L.A.-long Beach, is not only a terrorist problem; but if 
it should stop, or as we try to protect physically some of this 
cargo or protect ourselves, we may slow down the process of 
moving cargo through these ports and across our Nation. And, of 
course, that has a great economic impact.
    In fact, I was recently over at the defense college here in 
the area, and we worked on that port scenario in particular, to 
take a look at what it would like look if we closed down 
traffic in some of our major ports. And being from the L.A.-
long Beach area, one of the things that we saw in the lockout 
in the port area was not just all of the container freight 
sitting right off our coast all of the way down through Orange 
County, but more importantly, the significant impact of almost 
$20 billion worth of economic impact or loss to our Nation.
    Just because it is in Los Angeles and Long Beach does not 
mean that it does not affect the rest of the Nation, because 
that cargo and those sales are done throughout the Nation. I 
have met with some of you before, and I am excited that our 
members here will get to see some of your technology and see 
some of the solutions as we try to find a quicker and good way 
to find a fix, and a smart way.
    Mr. Camp. The Chair now recognizes Representative Dunn for 
an opening statement.
    Ms. Dunn. I look forward to hearing from our witnesses 
today. The issue is a very important one to my constituents in 
Washington State and, in particular, to the Seattle area which 
faces a unique set of security challenges. The international 
border and the coastline, as well as the presence of 
international companies, such as Boeing and Microsoft, make my 
home a particularly vulnerable place.
    Washington State thrives on the commerce created by trade 
across our borders. The State's tourism industry depends on 
travel across our northern border. The cruise line industry is 
quickly becoming a major and welcome presence in Seattle. 
Therefore, any changes in the exchange process affect our 
economy and, therefore, my constituents.
    Our security, whether it be in the cyberworld or at our 
seaports and international borders, depends on public-private 
relationships; and so today, our committee is here to learn 
about the technology that our private sector partners are 
developing to make our borders and ports more secure. This 
Nation's private companies have been responsible for great 
technological innovation, innovation which has allowed us to 
make great strides in our security efforts already.
    I am aware of the technological developments happening at 
Boeing in the area of baggage screening. And Mr. Stephens has 
been a lead voice in an aviation security study project, which 
has involved industry stakeholders; and I look forward to 
finding out a little bit more about that during the questioning 
period.
    We will continue to rely on private companies and support 
them while they continue to develop new technology. I look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Camp. Without objection, any member may place an 
opening statement in the record, or revise and extend their 
opening statement.
    Again, I would like to thank and recognize our panel for 
the testimony they are about to offer, Mr. Richard Stephens 
from Boeing, Dr. W. Scott Gould from The O'Gara Company, 
Captain Houssam Salloum from Axiolog, Inc., And Jeffrey Katz 
from Atmel.
    We have received your written testimony. You may summarize 
your statement in 5 minutes. We will start with Mr. Stephens.

   STATEMENT OF RICHARD STEPHENS, VICE PRESIDENT AND GENERAL 
  MANAGER, HOMELAND SECURITY AND SERVICES, THE BOEING COMPANY

    Mr. Stephens. Mr. Chairman, and members of the 
subcommittee, thank you. I appreciate the opportunity to appear 
before you today to discuss best practices as they relate to 
homeland security and, particularly, border security.
    As you are aware, one of the biggest challenges that we 
face as a global community is defining the respective roles 
governments and business leaders play in the war on terrorism. 
Collectively, our jobs are to find ways to stop terrorism so 
that people feel safe and to protect the means that support our 
global economic prosperity. This is a large and complex 
problem. The approach must be complete and integrated if we are 
to find a comprehensive and efficient solution to this clear 
and present danger.
    Clearly, terrorists are strategists. They choose their 
targets deliberately. They know no boundaries and operate 
within and outside our borders, as was evidenced on 9/11.
    We have to catch them before they act. To do that, we must 
augment and integrate the best information and management 
systems possible to collect information and connect the dots in 
time to thwart any attack. We need to see, to know, and to 
understand. We must anticipate the security challenges on all 
fronts.
    As the world's largest aerospace company, Boeing has 
developed many best practices for developing and implementing 
large-scale solutions to issues that require the interaction of 
people, processes, and technology. The skills we have developed 
by integrating advanced systems for defense, space, 
intelligence, homeland security, and commercial customers are 
directly applicable to solving the large, complex problems the 
United States faces in homeland security.
    Based on our experience, we identified the following seven 
proven tenets that apply to successful, large-scale integration 
projects. We offer them as best practices that can be applied 
to homeland security and could help increase the security of 
our Nation's borders.
    The first is to create partnerships with the customer and 
key stakeholders and align the expectations of all the parties.
    Second is to leverage large-scale systems integration and 
network centric operation capabilities to meet market and our 
customer needs.
    The third is fundamentally important and that is to partner 
and align with the best-in-class companies.
    Fourth is to develop standards that provide open 
architecture solutions, so any technologies made available can, 
in fact, be brought to continue to improve and enhance the 
systems put in place.
    The fifth one is also important, because we are talking 
about the expenditure of not only business resources, but 
government resources; and that is to conduct modeling and 
simulation and operation analysis to make sure we shape the 
solutions before we implement them.
    Sixth is identifying risks early and use solid risk 
management plans to make sure that the solutions we are talking 
about are on time and meet the objectives.
    Last on the list is to share information real-time with all 
of the customers, the stakeholders and partners.
    I have used the term ``customer'' a number of times and 
believe it is important to emphasize that, ultimately, the 
customer is the American public, the business community, and 
the government infrastructure that supports our democracy.
    Aviation and border security face similar challenges. Let 
me give an example how we applied these best practices to the 
airport and aviation security last year when the government 
selected Boeing to help Americans feel secure about air travel 
by supporting the Transportation Security Administration in 
meeting a congressional mandate to screen 100 percent of 
checked bags by December 31 of this last year at all of our 
Nation's commercial airports.
    Many experts thought the job was not possible, but we 
accomplished that goal by building a world-class team and 
working hand in hand with our customers, which included the 
Transportation Security Administration and the aviation 
industry. We applied our expertise and proven principles as a 
lead systems integrator, and in 207 days the Boeing team 
conducted site surveys, did preliminary designs, did final 
designs, did facility modifications, installed more than 6,000 
explosive detection systems and explosive trace devices at over 
400 commercial airports in the United States, and trained more 
than 25,000 checked-bag screeners.
    The TSA-led efforts to secure America's airports employed 
many of these tenets that I talked about, and most important 
was the first one, and that was to ensure we had all of the 
stakeholders pulled together. Over 3,000 stakeholders were 
involved nationwide, including the Nation's airports, the 
airlines and many other officials at the State and local 
levels.
    Using tenets 2 and 3, we drew on the expertise from across 
the company and our supplier partners. We grew from a core of 
100 people to over 30,000 strong, working together with the 
aviation industry to achieve the goal of 100 percent baggage 
screening. While most would agree that there was some 
additional work to be done to smooth out the rough spots in the 
system, given the time and resource constraints, the job was 
accomplished well and America's aviation system is much more 
secure.
    We are now leveraging the work we did and the lessons 
learned to support additional homeland security large-scale 
systems integration opportunities, where again we have complex 
goals and complex challenges. As you are aware, Boeing and its 
best-of-class partners were selected for one of the Operation 
Safe Commerce programs, specifically to work the Los Angeles 
and Long Beach area, and will be conducting similar 
demonstrations at other seaports around the U.S. We are using 
all seven tenets I described above.
    Within the Boeing company, we recently initiated an 
Integrated Border Awareness and Management study to understand 
how the U.S. border operates, including its stakeholders, 
processes, and technologies. Because Boeing is, in fact, the 
Nation's largest exporter, with business sites located at 
significant borders of entry, Boeing has a vested interest, as 
well as obligation, to use its people, processes and technology 
towards improving security at U.S. borders. We also have a 
vested interest because we need to ensure our global customers 
are able to gain entrance to the United States to train their 
pilots and aircrews to be able to operate our particular 
products.
    That having been said, we are not necessarily experts on 
border security. However, we recognize the challenges that are 
faced in the border area, including large, complex management 
challenges with multiple legacy systems, little or no 
intraoperability or communications capability, difficult or 
impossible-to-access information to make decisions, and 
situational awareness and tactical information being undefined.
    Congress has mandated the U.S. VISIT program to address 
some of these near-term security issues. Our company, along 
with many others, is looking at long-term solutions, and we 
recognize the importance of including U.S. VISIT as the first 
phase. However, we also encourage the government to be 
sensitive to defining requirements in such a way that it does 
not stifle the inventiveness that industry can bring to the 
table.
    Border security also requires large-scale integration of 
information gathering and multiple layers, similar to what was 
developed for the aviation industry. Looking back to the 
enormity of the aviation security project, we cannot afford 
gaps in the system.
    Six Sigma, which became a watchword for quality control in 
the 1980s and 1990s to help enhance manufacturing production by 
measuring defects in parts per million simply is not good 
enough when we are talking about the Nation's security. As 
such, as we look at trends, we believe there needs to be a 
multilayered approach to ensure that any potential breaches in 
the system are picked up by other layers.
    Border security is a hard job. Many organizations are 
involved, and there is a lot of sharing of information that 
must take place in ways that we have never shared information 
before. Many varied stakeholders must work together protecting 
not only America, but also the resources that make our economy 
strong and vibrant. Very few companies have the ability to 
integrate systems at the scale we are talking about for U.S. 
borders.
    For any integration to be successful, there must be 
partnerships between the government and industry, and both must 
follow the best practices that I mentioned previously in my 
statement. We have available, if you would like, a document we 
call ``All Systems Go.'' It is a document we use on a regular 
basis to share with our customers and constituents some of the 
tools we use on a regular basis, and we are pleased to share 
that with you.
    That concludes my statement and I will be pleased to answer 
any questions you have, Mr. Chairman, or members of the 
committee have.
    Mr. Camp. Thank you very much.
    [The statement of Mr. Stephens follows:]

                 PREPARED STATEMENT OF RICHARD STEPHENS

    Mr. Chairman and Members of the Subcommittee:
    Good Morning. I am Rick Stephens, Vice President and General 
Manager of Homeland Security and Services for The Boeing Company. I 
appreciate the opportunity to appear before you today to discuss best 
business practices as they relate to border security.
    One of the biggest challenges we face as a global community is 
defining the respective roles world governments and business leaders 
will play in the war on terrorism. Collectively, our jobs are to find 
ways to stop terrorism so that people feel safe and to protect the 
means that support our global economic prosperity. This is a large and 
complex problem. The approach must be complete and integrated if we 
want to find a comprehensive and efficient solution to this clear and 
present danger.
    Terrorists are strategists. They choose their targets deliberately. 
We have to catch them before they act. To do that, we must augment and 
integrate the best information and management systems possible to 
collect information and ``connect the dots'' in time to thwart any 
attack. We need to see--to know--and to understand. And to do that we 
must be vigilant. We must anticipate security challenges on all fronts.
    As the world's largest aerospace company, Boeing has developed many 
``best practices'' for developing and implementing large-scale 
solutions to issues that require the interaction of people, processes 
and technology. The skills we have developed by integrating advanced 
systems for defense, intelligence and commercial customers are directly 
applicable to solving large, complex problems the United States faces 
in its homeland security mission.
    Based on our experience, we identified the following key principles 
that apply to successful large-systems integration projects. We offer 
them as best business practices that can be applied to homeland 
security and could help increase the security of our nation's borders:
        <bullet> Create partnerships with the customer and key 
        stakeholders and align expectations.
        <bullet> Leverage large-system integration and network centric 
        operations capabilities to meet market and customer needs.
        <bullet> Partner and align with the best-of-class companies.
        <bullet> Support development of standards that provide open 
        architecture solutions.
        <bullet> Conduct modeling, simulations and operational analysis 
        to help shape the way forward.
        <bullet> Identify risks early and use solid risk management 
        plans.
        <bullet> Share information real-time with the customer, 
        stakeholders and partners.
    Let me give you an example of how we applied best practices to the 
airport security program. Last year, the government selected Boeing to 
accomplish what many considered an impossible job--help Americans feel 
secure about air travel by meeting a Congressional mandate to screen 
100 percent of checked baggage by Dec. 31, 2002 at all the nation's 
commercial airports. Many experts thought the job was not possible. But 
we accomplished that goal by building a world-class team and working 
hand-in-hand with our customer, the Transportation Security 
Administration and the aviation industry.
    We applied our experience and business principles of lead systems 
integration to the airport security project. In less than six months, 
the Boeing team installed more than 6,000 explosive detection systems 
and explosive trace devices at 439 commercial airports in the United 
States. The Boeing team also trained more than 25,000 checked baggage 
screeners. This represents one of the largest short-term projects in 
U.S. government history.
    To reach the objective, we needed the involvement and buy-in of 
more than 3,000 stakeholders nationwide--TSA (now a part of the 
Department of Homeland Security), the nation's airports and airlines 
and many other officials at the state and local levels. The Boeing 
program team, drawing on expertise from across the company and its 
supplier partners, grew from a core group of 100 to more than 30,000 
strong, working together with the aviation industry and government 
stakeholders to achieve the stated goal of 100 percent baggage 
screening. While most would agree that there is additional work to be 
done to smooth out the rough spots, given the time and resources 
constraints, the job was accomplished and America's aviation system is 
more secure.
    We are now leveraging the work we did with the airport security 
program to support additional homeland security large-scale systems 
integration opportunities where meeting extremely complex goals with 
the greatest possible urgency and efficiency to help keep Americans 
safe and secure is required. As you are aware, Boeing and its best-of-
class partners were selected for one of the Operation Safe Commerce 
programs. We are working directly with the stakeholders involved in 
examining, securing and tracking goods shipped into the ports of Los 
Angeles and Long Beach and we will be conducting similar demonstrations 
at other seaport locations.
    Within the Boeing Company, we recently initiated the Integrated 
Border Awareness and Management (IBAM) study to understand how the U.S. 
border operates, including its stakeholders, processes and 
technologies. Because Boeing is the United States' largest exporter 
with business sites located near significant border ports of entry, 
Boeing has a vested interest -- as well as an obligation -- to use its 
people and technologies toward improving the security at U.S. borders.
    That said, we are not experts on border security. However, we 
recognize the challenge the federal government faces in securing our 
borders--7,500-plus miles of border with Canada and Mexico, 95,000 
miles of shoreline and navigable waterways, 300 ports of entry. Our 
initial study of current border management helped us recognize the 
environment we were dealing with:
        <bullet> Large complex management challenges with multiple 
        legacy systems and organizations;
        <bullet> Little or no interoperability or intercommunication 
        capability among the managing agencies;
        <bullet> Difficult or impossible-to-access information to make 
        decisions is unavailable at the front line;
        <bullet> Situational awareness and tactical information 
        undefined, for example, where problems are occurring, where 
        resources are located, how to make the best deployment/
        intercept choice, and how to efficiently and accurately 
        determine the status of a person, cargo or vessel.
    Congress has mandated the U.S. Visit program to address some of 
these near-term security issues at the borders. Our company, along with 
many others, is looking at long-term solutions and we recognize the 
need to incorporate U.S. Visit as a first phase. We encourage 
government to be open in its requirements so not to stifle the 
inventiveness of what industry can bring to the table.
    But border security also requires a large-scale integration 
solution utilizing information-gathering tools and technology, modeling 
and simulation, and network centric operations in a layered approach 
similar to what the Transportation Security Administration developed 
for airport security.
    Looking back to the enormity of the challenge of the aviation 
security project, we can't afford gaps in the system. Six Sigma, a key 
quality control concept in the 1980s and `90s that enhanced 
manufacturing production by measuring defective parts per million, 
simply isn't good enough when you're talking about the nation's 
security. We are reviewing information occurring in millions of 
transactions per day, looking at trends and political issues and, as 
some would say, moving the haystacks away so we are left with the 
needles.
    Network centric operations gathers those millions of pieces of 
information and delivers them in such a manner as to give a common 
operating picture. This helps decision makers manage risk by getting 
the right information to the right people who have to act on it at the 
right time. We must have a layered approach to make sure that there are 
no gaps in the system. In aviation security, those gaps in information 
are covered by checking passengers, screening baggage, reinforcing 
cockpit doors and using federal air marshals.
    A network centric environment is about creating the systems and 
capabilities that allow us to understand the situation with speed, 
accuracy and efficiency. It's about integrating communications and 
information systems that provide insight into the status of security 
from airplanes to airports, from cargo to passengers. It's also about 
interlinking data on shipping container information, cargo status and 
manifest into a centralized global database. And it's about using 
sensors to gather data, integrate it and correlate it in order to 
create an integrated awareness of the situation so that key decisions 
can be reached and actions taken.
    Right now, we have software intelligent agents that can pull that 
information together in a matter of minutes, presenting authorities 
with a threat correlation report and probability of a plausible 
terrorist plot. They look for the common thread -- like shared phone 
numbers, credit card and drivers license numbers, flight data, etc. 
Software intelligent agents act like a continually running search 
engine. In fact, you don't have to tell the search engine to go find 
the information--it does it for you. It anticipates your needs based on 
knowing your requirements. In this way, the network becomes our best 
arsenal in the war on terrorism
    Conclusion
    Global security isn't about being reactive--it's about being 
proactive. In order to be proactive, we must have information at our 
fingertips at all times, continually investigating before the fact.
    I believe border security requires the information superiority 
vision of tomorrow. And our industry, companies like Boeing and others, 
is responding to the call to duty. In the future, systems will give us 
all the information we need. But until we tie these systems together 
and they talk to each other, we're still vulnerable. We need knowledge 
to move forward. And a network centric environment gives us that 
knowledge.
    Border security is a hard job. Many organizations are involved and 
there is a lot of sharing of information that must take place in ways 
that we have never shared information before. Many varied stakeholders 
must work together to protect not only America but also the resources 
that make our economy strong and vibrant.
    Very few companies have the ability to integrate systems at the 
scale we are talking about for U.S. borders. For any integration to be 
successful, there must be a partnership between government and industry 
and both must follow the best business practices that I mentioned 
previously in my statement.
    That concludes my statement, Mr. Chairman. I would be pleased to 
address any questions you and other members of the subcommittee might 
have.

    Mr. Camp. Captain Salloum.

   STATEMENT OF CAPTAIN HOUSSAM SALLOUM, PRESIDENT AND CEO, 
                            AXIOLOG

    Mr. Salloum. Mr. Chairman, honorable members, I thank you 
for this opportunity to speak before this committee.
    Homeland security has dual challenges to make sure that our 
borders are protected and, at the same time, to make sure that 
the flow of the cargo goes smoothly to the ports. I would like 
to leave you with three main bullets, if I may, today.
    The first thing I would like to suggest is efficiency and 
security must go hand in hand from a commercial perspective. If 
we emphasize efficiency, efficiency by itself could compromise 
security; and if we emphasize only security, security could 
choke the economy. So they must go hand in hand.
    To really have security, we must think globally. With 
global visibility, we need to know what this warehouse is 
moving, what cargo around the world, in order for us to flag 
that particular shipment. So I need to know if this particular 
warehouse is moving cargo from, for example, Yugoslavia, coming 
to our country, what this particular warehouse imports; whether 
he has been involved in any suspicious activity, and is this 
the first time he has moved cargo to our country? So this is 
important for our security, to protect our borders, we must 
have global visibility.
    In order to have and achieve the global visibility, we must 
provide commercial benefits to the global logistics industry, 
and definitely that can be achieved by considering the 
commercial benefit that the system must provide to the global 
logistics industry.
    I would like to draw your attention, Mr. Chairman and 
members, to the second slide that I provided. We believe it is 
a very simple approach. Global cargo security must combine 
efficiency and security, and to achieve efficiency and 
security, global visibility is a must. And to do that, 
commercial benefit is the key to achieve this.
    Also I have included a slide, the last page in our handout, 
to give an idea of the flow of the shipment coming from 
overseas. So, in other words, we have here a foreign warehouse, 
we need to know about the activity of this warehouse, and his 
import and export activity, and this is the intelligence part 
of our security.
    Once the shipment is on the move to our country, we need to 
provide information to the Coast Guard so they can stop that 
ship or plane or that truck before getting to our country. That 
is before getting to our country. Once this happens, the same 
system must provide information to Customs so they can decide 
to flag the suspicious shipment or the suspicious enterprise. 
Because this is what is needed: We need global visibility, 
global data history, we need to apply true monitor lists, which 
is the Enterprise Monitor List and Shipment Monitor List, in 
order for us to flag a suspicious shipment.
    Once we achieve that, a few things have to be talked about 
the cargo when it is already in our country. Who is making sure 
that this container at the port is going to the warehouse where 
it has been manifested? The same system must be able to create 
some kind of geographic analysis of the movement of the truck 
from the port all of the way to the warehouse. So, if this 
truck, for example, goes to a different warehouse, an automatic 
signal will be sent to the local security enforcement officials 
to stop that truck, or at least go to this particular warehouse 
where the shipment has been discharged.
    In other words, we believe that the system must definitely 
be global--we need to have global participation. This is why 
also, when we visited Europe and we met with the cargo 
officials there, they liked very much the strategy that we have 
discussed; and they said we were consistent with their vision, 
because they also believe that commercial benefits is a key 
element to have a global participation in this cargo security 
system. So everybody will not fax a bill of lading or will not 
fax the shipment manifest; rather, they will feed in this data 
so we can have a record and a single source system that will 
give us the information we need to flag a suspicious shipment 
or suspicious enterprise.
    Thank you, Mr. Chairman.
    [The statement of Mr. Salloum follows:]

             PREPARED STATEMENT OF CAPTAIN HOUSSAM SALLOUM

Introduction
    The leadership of the U.S. Department of Homeland Security in 
developing plans to protect our borders is to be commended. This 
department through the Customs & Border Protection has the extremely 
demanding ``dual challenge of protecting our citizens and our borders 
from terrorists and the implements of terror, while facilitating the 
flow of legitimate trade.''
Following September 11, 2001 multiple Homeland Security programs have 
been launched to protect our borders from terrorist incursions via 
commercial shipments. These programs include Operation Safe Commerce 
(OSC), The Container Security Initiative (CSI), Customs Trade 
Partnership Against Terrorism (C-TPAT), and the Advance Manifest System 
(AMS).
These initiatives have been created to address specific subsets of 
shipments. In essence, the flow of a shipment has been broken down by 
tasks. This is due to the fragmented nature of international shipping. 
To illustrate, a relatively simple lane from a GM Silao assembly plant 
in Mexico to dealerships in Jacksonville, Florida involves 19 shipping 
events with 11 different companies, each employing their own 
proprietary information management systems. In global lanes, 
transshipments and consolidations can significantly increase the number 
of events and participating organizations.
For years, the global shipping industry has been seeking new methods to 
integrate these participants in order to improve efficiency and boost 
profits. Yet, no end-to-end system to manage this industry exists 
today. Given this reality, the U.S. Department of Homeland Security had 
little choice but to concentrate enforcement efforts on specific 
entities. This has led to overlaps. For instance, one shipment may be 
impacted by five different initiatives from the Customs & Border 
Protection alone. Any given entity may also be impacted by multiple 
initiatives.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

As shown above, shippers/receivers, carriers, and intermediaries are 
invited to join C-TPAT and FAST. While CSI is designed for ports 
program may impact nearly every entity involved in shipping. Likewise, 
under the ``24-hour'' rule carriers electronically file manifest 
information. Nevertheless, this rule affects all shipping participants, 
since this information is supplied by shippers and may delay delivery 
if it is not presented properly. Since these overlaps involve only one 
government agency and these programs already lead to concerns amongst 
shipping participants, they may wonder about the following:
        <bullet> What sort of overlaps will exist once the Office of 
        Homeland Security becomes fully operational?
        <bullet> What sort of overlaps will exist when international 
        governments and the World Customs Organization introduce their 
        own cargo security rules?
        <bullet> Why is there no coordinated, global approach to cargo 
        security?

Combining Efficiency and Security
The global economy demands efficient and secure global logistics. For 
any security system to be embraced worldwide, it must include 
commercial benefits. In other words, efficiency and security must go 
hand in hand. Efficiency by itself may compromise security. In 
contrast, overarching cargo security rules and regulations could damage 
the economy. Therefore, a comprehensive public/private sector solution 
must be implemented in order to economically and effectively deal with 
cargo security challenges. To encourage maximum private-sector 
involvement, the overall solution must deliver commercial benefits.
As an illustration, consider sea ports. Ports around the world are now 
being squeezed by seemingly opposing forces.
        <bullet> Requirements of security initiatives to provide for 
        more inspections, and improve the security of facilities.
        <bullet> Pressures from shippers and carriers to process cargo 
        faster and more efficiently.
        <bullet> Real business needs to contain costs and improve 
        profitability.
Failing to accommodate all of these forces will lead to imbalances that 
may result in financial losses, delays in the processing of cargo, and/
or compromised security. None of these developments is acceptable.
We assert that to effectively address cargo security whether 
domestically or internationally, a holistic system must be enabled that 
takes the entire flow of global shipments into account, from the empty 
container in a depot to the final receiver. Such a comprehensive 
approach must strive to meet two core objectives; 1) Encourage 
widespread private sector involvement by improving the process 
efficiency and profitability of all parties involved in shipment flows, 
and 2) Deliver cargo security improvements from the private sector that 
complement and reinforce official rules and regulations.

Cargo Security Guidelines Require Global Visibility 


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

Suggested cargo security guidelines include;
<bullet> To be proactive, U.S. Homeland Security agencies must collect 
real-time global shipping activity data and apply sophisticated 
artificial intelligence in order to identify and flag suspicious 
shipments, regardless of port or country of origin.
<bullet> When addressing U.S. national security, it is crucial to 
cross-check data from official sources with private sector data to test 
for integrity and consistency.
<bullet> U.S. national security should not depend on the integrity or 
capability of a single source of information or individual data sources 
in foreign countries.
<bullet> Limitations in technology capabilities in foreign countries 
should not hinder the flow of timely quality data from any foreign 
country.
<bullet> Despite any political or cultural differences, U.S. agencies 
should be able to receive reliable data from foreign countries.

Cargo Security Initiatives Enhancement
Keeping the above guidelines in mind, let us now consider how the 
following three primary Customs & Border Protection initiatives can be 
enhanced; the Customs Trade Partnership Against Terrorism, the ``24-
hour'' rule, and the Container Security Initiative.

Customs Trade Partnership Against Terrorism
C-TPAT is the Customs Trade Partnership Against Terrorism. This 
private/public sector partnership involves Customs inviting private 
companies involved in the flow of a shipment, from shipper to receiver, 
to help improve international supply chain security by applying ``best 
practices'' for security to their organizations.

Issues
C-TPAT is a good concept and the underlying ideas of voluntary ``best 
practices'' programs to improve supply chain security are reasonable. 
Yet, officials within homeland security have stated that mandates will 
be required in order to truly improve cargo security on the large 
scale. New cargo security legislation and advanced manifest laws 
provides previews of mandates to come.
On the global scale, corporate shipments are vulnerable based upon the 
realities of international shipping. C-TPAT members may have the most 
secure organizations, contract only secure suppliers, and utilize 
secure intermediaries and still have their shipments delayed or 
hijacked based upon the following reasons:
        <bullet> C-TPAT cargo mixes with less secure cargo on the same 
        vessel.
        <bullet> Corporate shipments may be used by terrorists as a 
        cover-up for their activities.
To address these issues, a comprehensive security system should be 
enabled that addresses high-volume and low-volume shipper's shipments 
as well.
The top twenty-eight ocean container carriers represent approximately 
eighty percent of the global movement of sea containers. Therefore, by 
establishing twenty-eight secure data connections, the majority of 
global shipping data will be accessible. Applying artificial 
intelligence to this commercial data and establishing two monitor 
lists, Enterprise Monitor List (EML) and Shipment Monitor List (SML), 
will enable new capabilities to flag suspicious enterprises involved 
with a given shipment and/or a suspicious shipment itself.
Shipments will be monitored for data mismatches, data anomalies and 
shipment flow deviations. In other words, through integration with 
corporate shipper supply chain management systems, the SML will 
identify the responsible parties who load, survey and move shipments 
throughout global supply chains. In addition, the system will know how 
long various events should take and how long they actually took 
(forecast vs. actual). This capability will be enabled by the process 
of combining global events with satellite tracking.
This approach has been independently validated by other organizations 
that recognize the strengths of enhancing official programs with 
private sector initiatives. In its recent Cargo Security White Paper 
the National Customs Brokers and Forwarders Assoc. of America, Inc. 
(NCBFAA) outlined some ideas to enhance C-TPAT and cargo security. In 
particular, they summarized a ``Chain of Custody Dataset'' or CCD. The 
CCD looks very much like the EML and SML approach. According to the 
NCBFAA, the CCD ``. . . will provide the deep penetration into supply 
chain risk evaluation that is necessary to detect security risks from 
the remotest source to the final receiver.''

The Advance Manifest System
The ``24-hour'' rule states that ocean carriers must electronically 
submit completed shipment manifest information to Customs & Border 
Protection, via their Automated Manifest System, 24-hours prior to 
loading vessels bound for U.S. ports. As of December 2, 2002, Customs & 
Border Protection made this rule mandatory. This rule has also become 
law under the Port and Maritime Security Act of 2001 (S.1214). 
Effective October 21, 2003 this law will be expanded to include truck, 
rail, and air. Reporting times vary by mode. For instance, the interim 
ruling states that truck carriers must submit their electronic manifest 
information from 30 minutes to 1 hour before they arrive at U.S. border 
crossings.
By far the most controversial law designed to address cargo security is 
the ``24-hour'' rule. There has been considerable resistance from the 
private sector to the ``24-hour'' rule. For example, in extensive 
comments to Customs & Border Protection concerning this matter, World 
Shipping Council President Christopher Koch articulated several 
industry concerns with this plan. Mr. Koch and the forty-plus ocean 
carriers he represents have expressed concerns about potential negative 
impacts the ``24-hour'' rule may have on their businesses.

Issues
There are also several security and operational problems associated 
with the over-emphasis on shipment manifest information in existing 
cargo security plans. The shipment manifest was never intended to be an 
informational resource for cargo security. The shipment manifest is the 
sum of bill of ladings associated with a vessel/voyage. It is 
noteworthy that the shipment manifest is a key component of S.1214 
which ``requires ships to electronically send their cargo manifests to 
a port before gaining clearance to enter, and prohibits the unloading 
of improperly documented cargo.''

The ultimate sources of manifest information are the shippers. In 
essence, the system is relying upon shippers to be honest about what 
they are shipping. And when certain officials were asked how they would 
confirm that manifests are filled out correctly, they proposed to ask 
the freight-forwarder. This begs the following questions;
        <bullet> How will the freight forwarder actually know what was 
        in a container?
        <bullet> How effective is any process for identifying suspect 
        shipments that relies on shipment manifest information self-
        reported by shippers?
Since freight-forwarders only charge nominal fees to submit bill of 
lading instructions on behalf of shippers, they can not afford to 
physically inspect shipments. Therefore, freight forwarders do not 
actually know what is in a container. The only person who actually 
knows what is in a container is the shipper. In essence, there are two 
principal issues associated with relying on shippers to provide 
information used to screen their own shipments.
        <bullet> How can government agencies be certain of any given 
        shipper's integrity?
        <bullet> Even when a shipper is reliable, can his or her 
        shipment still be hijacked by terrorists?
Once again, enabling EML and SML capabilities will help to confirm or 
deny the integrity of shippers and/or shipments on the global scale. 
Intelligently analyzing historical private sector shipping data 
concerning large and small participants involved in a shipment and 
introducing real-time monitoring of shipment data will help address the 
issues outlined above. In addition, incorporating the systems of land, 
air, and/or ocean carriers will provide up-to-date information about 
the actual movements of the international freight of corporate and 
individual shippers.

The Container Security Initiative
CSI is the Customs & Border Protection Container Security Initiative. 
The idea behind CSI is ``pushing back the borders'' to the port of 
origin. This plan involves stationing Customs & Border Protection 
inspectors in foreign ports to assist the pre-screening of containers 
bound for the US. Initially, the top twenty mega-ports, representing 
``roughly 68 percent of the 5.7 million sea containers entering the 
U.S. annually'' were invited to join CSI.

Issues
Due to the nature of the shipping business, ships that are employed on 
regular service typically call on about eight ports per voyage on 
average. Therefore, their itineraries are not limited to mega-ports. 
The common links between these ports is the vessel. A given port could 
invest large amounts of resources to address the security of cargo 
moving through that port, and yet a ship sailing from this secure port 
could be denied entry into a U.S. port due to suspicious containers 
that were loaded at smaller ports that are not part of CSI.
Additional political and economic factors have emerged that bring the 
present design of CSI into question. For some time, U.S. ports have 
been concerned that the ``24-hour'' rule may provide a competitive 
advantage for Canadian ports. This is due to the fact that shipments 
being unloaded in Canadian ports, ultimately bound for the U.S. via 
road or rail, are not subject to the ``24-hour'' rule. U.S. ports have 
legitimate concerns that cargo may be diverted from U.S. to Canadian 
ports as a result.
Another perspective on CSI came to light in a NY Times News Service 
article Port Security Plan Irks Europeans (11/6/02). According to this 
report, ``European Union officials are concerned that the program's 
incentives favor those ports that sign the agreements and penalize 
those that either refuse or are too small to take part.'' Likely, cargo 
that has been pre-screened at CSI ports will be subject to less 
rigorous inspection at U.S. ports than non-CSI shipments. EU officials 
state ``that companies shipping goods to the United States will start 
rerouting their cargo to ports like Rotterdam, depriving others of 
business and potentially creating bottlenecks in some shipping 
regions.'' As if to drive home this point, `A Dutch customs official 
(stated) the U.S. agreement was not just a way to prevent terrorist 
attacks. ``It's good for business,'' she said.' The EU views European 
Customs agreements as European Community agreements. Therefore, ``the 
EU is considering the possibility of beginning infringement procedures 
against countries that have signed on to the initiative.'' Even though 
a compromise was reached to avoid this suit, it points out how cargo 
security rules may have unintended consequences.
Since the common denominator regarding international ocean freight 
movements are ships, not ports, methods to confirm the integrity of 
containers aboard ships must be put into action. Incorporating vessel 
specific information into the EML and SML system will improve the 
intelligent screening of cargo at any port and terminal. When 
integrated into port security and customs operations, this approach 
will improve the targeting of cargo for scanning or inspection by 
customs officials. This technique will help address the competitive and 
operational issues associated with the present design of CSI. 
Significantly, this approach has been recognized by top officials 
within U.S. Homeland Security Departments as ``ahead of the game.''

Commercial Benefits
Any commercially viable e-logistics network should be designed to 
standardize and simplify shipping processes for shipping participants. 
It should offer smart business tools to enhance the reliability and 
dependability of logistics by bringing shippers and carriers closer 
together, helping organize the private shipping market, and improving 
logistics providers' service delivery. Increased costs of enhancing 
cargo security should be offset by a system that provides economic 
benefits. Following are key benefits such a system should deliver for 
members of the global shipping community.

Carriers:
        <bullet> Unique tools for managing capacity utilization and 
        minimizing dead space.
        <bullet> Organizing the private shipping market.
        <bullet> Minimizing non-value-added activities between shippers 
        and carriers, increasing carrier and shipper ROI.
        <bullet> Enhancing relationships with contracted corporate 
        shippers via integration into global supply chain management 
        systems.
        <bullet> Compliance with new and emerging international 
        governmental cargo security regulations.

High-Volume Shippers:
        <bullet> Integrating Just-In-Time Inventory with JIT Shipping.
        <bullet> Global Coverage and Tracking.
        <bullet> Global Visibility (status, freight costs, survey).
        <bullet> Global Documentation and Claim Processing.
        <bullet> Automated Exception Processing.
        <bullet> End-to-End Real Time Performance Monitoring.
        <bullet> Compliance with new and emerging international 
        governmental cargo security regulations.

        <bullet> Low-Volume Shippers:
        <bullet> Allowing shippers to evaluate and select carriers 
        serving desired destinations, based upon individual shipment 
        needs.
        <bullet> Allowing shippers to obtain real-time rate quotes, 
        complete bookings, and submit bills of lading online.
        <bullet> Providing shippers with access to information 
        concerning customs, insurance, financing, and warehousing, etc.
        <bullet> Providing, for example, an Italian shipper moving 
        cargo from Brazil to South Africa, with door-to-door shipment 
        to obtain personalized service provided through the selected 
        carrier's local agent networks.
        <bullet> Standardizing and expediting claims processes.
        <bullet> Standardizing and expediting documentation processes.
        <bullet> Delivering global coverage using multiple carriers and 
        multiple modes of transport.
        <bullet> Enabling real-time global tracking by combining GPS 
        and/or RFID with event status reports.

Ports:
        <bullet> Cost effective means to target suspect shipments for 
        inspection prior to loading.
        <bullet> Cost effective means to target suspect shipments 
        entering the home country.
        <bullet> Providing smart tools to help plan and maximize port 
        capacity utilization.
Delivering commercial benefits for all participants in global logistics 
must be the basis of any security system. This approach will place that 
system in a distinctive position of helping to enhance cargo security, 
while improving the efficiency of private companies' global logistics 
networks.

Conclusion
The required technology should provide proactive information to 
multiple security agencies. Let's take as example a containers coming 
to the United States by ship.
Intelligence Agencies: The system must provide intelligence to the 
intelligent agencies about the warehouse activities overseas. Coast 
Guard: On board ship and now six miles from the U.S. port of entry, 
proactive information is made available to the United States Coast 
Guard on the contents of the ship, and what's in the containers. The 
Coast Guard now knows the immediate history of the ship and its cargo. 
Any suspicion results in stopping the ship while it is still in 
international waters. Customs: At the ports, the US Customs agents are 
given all information necessary to flag suspicious shipments or 
enterprises. But the information flow doesn't end here. FBI/State 
police / Local law enforcement: When the freight/goods leave the port 
of entry for an in-country delivery or drop off, the system will 
automatically track each shipment. Any time the shipment deviates a 
signal will be sent automatically to local enforcement officers. This 
is necessary and now possible for domestic security.
In order to tackle the significant potential threats posed by the 
massive volumes of domestic and international cargo shipments, any 
solution must be commercially viable and be able to rapidly scale to 
handle high transaction volumes. Such a global solution must also 
provide methods to include every entity involved in the global shipping 
industry (land, air, and sea) into a cohesive cargo security strategy. 
To encourage maximum private-sector involvement, the overall solution 
must provide clear commercial benefits.
Axiolog appreciates being invited to address this committee, and looks 
forward to assisting your continued efforts in protecting America's 
borders.

        STATEMENT OF W. SCOTT GOULD, THE O'GARA COMPANY

    Mr. Gould. Mr. Chairman, thank you for inviting me here 
today to participate in the discussion about Best Business 
Practices for Securing America's Borders.
    The previous witnesses and Mr. Katz have focused their 
remarks on specific kinds of systems and technologies that 
could secure our land borders and other ports of entry and 
prevent the entry of terrorists and weapons of mass destruction 
to our shores. I will focus my remarks in a different, but 
equally important direction, specifically on the best practices 
that government can utilize to ensure that it makes appropriate 
and beneficial investments in homeland security systemwide. 
These best practices are an application of portfolio investment 
techniques and the creation of common and open standards for 
technology purchased through the Federal procurement system.
    Recently, my company, The O'Gara Company, published a 
report on these and related topics entitled ``The Homeland 
Security Market: Corporate and Investment Strategies for the 
Domestic War Against Terrorism.'' I have copies of that for 
Members and staff. Key excerpts from this report can be found 
at the end of my written testimony. My co-author, Chris 
Beckner, and I would be happy to make full copies of the report 
available after the hearing.
    Making appropriate investment decisions and allocating 
resources in alignment with the threats to homeland security 
that the country faces today are challenging issues for leaders 
in Congress and the administration. In the Department of 
Homeland Security, where it is the plan to spend large amounts 
of money reasonably quickly, we need a disciplined portfolio 
investment process which will guide the department toward a 
better overall outcome within its budget constraints. Such a 
process would require a common threat vulnerability assessment 
approach, a common measure of risk, a process to rank-order 
investments using cost-benefit analysis and resource allocation 
methodologies, and finally, a means to link these decisions to 
the budget and procurement process.
    To advance this effort, we have developed a framework to 
help senior policy-makers think through these issues called the 
security portfolio investment approach. The approach borrows 
from analytical tools that corporations use to assess the 
attractiveness of investments in the private sector today.
    Another approach could be developed; the point here is that 
one should be used to make these complex decisions. The 
framework is dynamic, it will require difficult judgments, but 
these challenges can be managed. Use of an approach like this 
one will help ensure that taxpayer dollars are used wisely to 
fight terrorism.
    Once the Department establishes its investment priorities, 
it will need to turn to the private sector to carry out key 
projects that advance the policies developed by Congress and 
the administration. Procurement, therefore, is the second area 
I would like to discuss today.
    It is imperative that U.S. citizens get a strong return on 
their investment in the private sector's effort to develop 
homeland security solutions. The entire Department of Homeland 
Security system of buyers for information technology, 
intelligence and management services have to reach agreement on 
needs and desired outcomes, and these needs must then be 
translated into the requirements that drive the procurement 
process.
    Five important steps directly related to the procurement 
process should be followed to accomplish better results for the 
Department of Homeland Security. In this case, better results 
mean successfully engaging the private sector to provide end-
to-end solutions for homeland security that work, providing 
sound value to the government buyer and minimizing the risk to 
Congress and the taxpayer that public funds are poorly spent. 
All five steps are discussed in my written testimony, but the 
most important one is that we must ultimately have basic 
requirements, frameworks, standards and architectures for 
homeland security systems that we purchase.
    To be certain, the administration has asked industry to 
develop these basic requirements and standards already, but in 
the current economic climate the lack of a process to develop 
an industry solution and competitive disincentives have kept 
many industries from taking the necessary steps to ensure an 
adequate level of increased security investment. Industry 
measures have been insufficient in the area of cybersecurity 
and in the chemical and trucking industries. Almost 2 years 
after 9/11 there are few agreed-upon standards for homeland 
security.
    The extent to which government should be involved in the 
process of standard setting is open to debate. I believe there 
is a range of possible roles from government inspiration all of 
the way to government regulation that makes sense, but it is 
vital that government ensure that standards are ultimately set. 
The private sector will require varying degrees of help in this 
respect, but we must have agreement on standards to diminish 
waste between incompatible solutions and efficiently move 
solutions to scale.
    In conclusion, the Department of Homeland Security should 
adapt private sector portfolio investment tools to inform 
decisions about how to protect our Nation against the threat of 
terrorism. This will help Congress resolve the difficult debate 
about how much and where to spend money on homeland security. 
Furthermore, the Federal Government can more effectively 
harness the capabilities of the private sector in the 
procurement process by ensuring that reasonable standards are 
developed. This will help optimize our investments, improve 
security, and deliver value to the American taxpayer.
    Mr. Camp. Thank you.
    [The statement of Mr. Gould follows:]

                  PREPARED STATEMENT OF W. SCOTT GOULD

I. Introduction
Thank you for inviting me here today to participate in this discussion 
of Best Business Practices for Securing America's Borders. The previous 
witnesses have focused their remarks on the specific kinds of systems 
and technologies that we need to utilize to secure our land borders and 
other ports-of-entry, and prevent the entry of terrorists and weapons 
of mass destruction to our shores. I will focus my remarks in a 
different but equally important direction, specifically on the ``best 
practices'' that the government can utilize to ensure that it makes 
appropriate and beneficial investments in homeland security over the 
long-term. In particular, I want to discuss best practices in two key 
areas--portfolio investment and procurement--with a specific focus on 
homeland security.
    This is a subject that my company, The O'Gara Company, has been 
focused on for the past 18 months in its efforts to help the private 
sector understand homeland security and the private sector's role in 
this critical endeavor. In May 2003, we published a report that 
summarized our accumulated knowledge on this topic, entitled ``The 
Homeland Security Market: Corporate and Investment Strategies for the 
Domestic War against Terrorism,'' which was co-authored by one of my 
key staffers, Christian Beckner. That report was an attempt to provide 
corporations and investors with the essential facts that they need to 
know in order to do business in the homeland security market. Key 
excerpts from this report can be found at the end of my written 
testimony, and I would be happy to make full copies of the report 
available to members and their staffs at their request after the 
hearing.
    The Department of Homeland Security has made rapid strides since 
its inception earlier this year, moving from what Secretary Ridge 
described as the ``visionary phase'' to the ``implementation phase.'' 
Progress is being made every day, but we cannot underestimate the 
difficulty of this undertaking. We could cite numerous examples from 
the private sector of failed mergers and difficult restructurings. The 
Department is bringing together 22 diverse agencies, and at the same 
time building a number of new capabilities that will improve this 
country's ability to prevent and respond to terrorism.
    Any successful business needs to understand and continuously 
improve its core business processes, such as its customer management, 
human resources, and financial accounting processes. Two key processes 
in any company are corporate budgeting and supplier management. The 
comparable functions in the federal government (and specifically in the 
Department of Homeland Security) are portfolio investment and 
procurement. I would like to examine each briefly, and discuss best 
practices for each. It is imperative that the Department and its 
constituent agencies study examples from the public and private sector 
and move vigorously to implement best practices in these two areas. If 
it can adopt effective capabilities in each area, the Department will 
improve its ability to make appropriate and cost-effective investments 
in homeland security.

II. Best Practices in Homeland Security: Portfolio Investment
    Making appropriate investment decisions and allocating resources in 
alignment with the threats that we face is perhaps the most vexing 
issue for the homeland security leadership in the Administration today. 
How do we know where the threat is coming from? What targets should we 
be protecting, and from what kind of attacks? Should we focus our 
limited resources on preventing and detecting attacks or responding to 
the consequences of attacks? Which means should we use to prevent 
particular types of attacks? How many layers of security do we need to 
protect against any particular scenario?
    The efforts to improve our homeland security are not served by a 
collection of isolated investment decisions, each made without a common 
plan by competing bureaucratic interests. Homeland security is 
strengthened most effectively when our limited resources are managed in 
a coordinated fashion. The private sector regularly uses portfolio 
investment techniques to manage financial, technical and human resource 
allocation decisions. I believe we should do so in homeland security as 
well. Importantly, the public sector is familiar with these tools and 
they are already public law. For example, the Clinger-Cohen Act 
requires this basic management strategy to be used to guide information 
technology investments, and the GPRA planning and measurement process 
has acquainted government managers with planning and performance 
measurement techniques. In the Department of Homeland Security, where a 
large amount of money is being spent quickly, we need a disciplined 
portfolio investment process which will guide the Department toward a 
better overall outcome within its budget constraints. Such a process 
will require:
        <bullet> A common threat vulnerability assessment approach
        <bullet> A common measure of risk
        <bullet> A process to rank order investments using cost-benefit 
        analysis and resource allocation methodologies
        <bullet> A means to link these decisions to the budget and 
        procurement process
    To advance this effort, we have developed a framework to help 
senior policy-makers think through these issues: the Security Portfolio 
Investment Approach (SPIA). The matrix borrows from analytical tools 
that corporations use to assess the attractiveness of investments. Any 
corporation has a range of competing options for future investment, 
which offer different rates of return. Similarly, the Department of 
Homeland Security has a range of projects that it could undertake to 
improve our homeland security. Some of them are low-cost quick fixes, 
and others are high-cost endeavors. Some of them offer only marginal 
improvements to our security; others could make substantial 
contributions to our security and plug a critical gap in our nation's 
defenses. The SPIA matrix allows the Department to weigh these trade-
offs between cost and security, conduct an informed dialogue with the 
private sector, and choose the right projects for investment.


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    Any particular project can be placed on the chart according to its 
expected cost and its benefit from the standpoint of security. The 
dotted line that runs through the middle of the chart is a cut-off 
point between necessary and unnecessary projects. The benefits of 
projects that fall below the line outweigh their costs, and our 
desirable. Conversely, projects that fall above the line are expensive 
relative to their expected benefits, and should be funded only with 
great caution.
Chart 2 below shows the SPIA matrix in action, with examples from the 
area of aviation security, where the federal government has taken a 
number of important steps since 9/11 to improve security. 


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    In the chart, we've plotted a number of key aviation security 
projects on the matrix. The placement of each project here is 
subjective, and based on public perception of the efficacy of these 
efforts, not any insight based on classified information about the 
TSA's performance. Some projects fall well below the line, such as the 
reinforcement of cockpit doors in commercial aircraft: this was a one-
time, relatively low-cost expense that created a new and critical 
barrier to a repeat of the attacks of 9/11. Other projects that fall 
closer to the line are more difficult to judge. It is inexpensive to 
check traveler IDs for a second time at the departure gate, but the 
benefits of this are small in our assessment. It's a close call. The 
financial investment in Explosive Detection Systems (EDS) for checked 
baggage is significant, but the benefit of plugging this gap is 
correspondingly large, and worthwhile. Other projects fall above the 
line and are questionable. The increase in investment in federal air 
marshals is questionable in our opinion, given the fact that the 
reinforcement of cockpit doors and the likelihood of increased 
passenger vigilance (what we saw with the heroes of Flight 93, and the 
passengers who stopped Richard Reid from carrying out the shoe-bomb 
attack last year) already have created significant new layers of 
security in the cockpit and passenger cabin. Again, let me reinforce 
that this is based on a subjective interpretation of publicly available 
information; perhaps there is classified information that the increases 
to the federal air marshal program are in fact effective, but I have 
not seen this.
    The main point of bringing up these examples is to illustrate how 
the SPIA matrix works, not to invite a prolonged discussion of these 
specific examples. This model could equally be applied to the topics of 
today's hearing, border security and trade security. In the area of 
trade security, you could plot projects such as the Container Security 
Initiative (CSI), the Customs Trade Partnership against Terrorism (C-
TPAT), the 24-Hour rule, and R&D for next-generation cargo tracking and 
screening technology on the matrix. For border security, you could plot 
projects such as US VISIT, the National Security Entry-Exit System 
(NSEERS), investments in new motion sensors on the northern and 
southern borders, and changes to the Visa Waiver Program on the matrix.
    It should be borne in mind that this framework is not intended to 
paint a static picture. A project could move to a new position on the 
matrix, and become more attractive, if one of the following happens:

1. A particular type of threat becomes more important. For example, 
after the near-miss of an Israeli jet-liner by a surface-to-air missile 
in Mombasa, Kenya last November, the danger posed by this type of 
threat from al-Qaeda became more significant, and investments in anti-
missile technology (systems that use flares and chaff to misdirect 
incoming missiles) became more viable, shifting to the left on the 
matrix.

2. A project can be delivered at a lower cost. A technological 
breakthrough or increased vendor efficiency and competition could 
decrease the cost of a particular project. The project would shift 
downward on the matrix and become more viable.

3. Two projects are complementary in nature and create new value in 
combination. For example, two distinct database projects to track 
terrorists might be marginal investments on their own, but in 
combination, create new information that significantly improves law 
enforcement officials' capabilities to stop terrorists in their tracks.
4. A project creates secondary value and improves business efficiency. 
Some of the programs that Customs and Border Protection (CBP) have 
undertaken in the past two years fit this description. The technology 
investments that companies will make to fulfill the requirements of the 
24-Hour Rule and C-TPAT could also be used to improve supply chain 
efficiency, and facilitate the expedited sorting and delivery of 
inbound goods. These efficiencies can decrease the cost burdens to the 
private sector from new homeland security requirements.
    Conversely, a project could become less attractive if another 
project makes it redundant. In the absence of reinforced cockpit doors 
and increased passenger vigilance, an increase in federal air marshals 
would be a wise investment. But in tandem with these other low-cost 
investments, it seems to deliver a low level of marginal security 
benefit at a high cost.
    There are three key obstacles to the effective utilization of the 
SPIA matrix or a similar resource allocation model in the area of 
homeland security:

1. Difficult to know which threat scenarios to protect against. The US 
government has developed a large body of intelligence about al-Qaeda 
and other key terrorist organizations, and has some insight into their 
capabilities, interests, and preferred modes of attack. Nevertheless, 
it is difficult to set priorities among different threat scenarios. And 
it is even more difficult to get information about these priorities to 
the people who make the decisions about where to focus investment in 
homeland security, not only in the key agencies of the Department of 
Homeland Security, but also in the private sector, which owns more than 
80 percent of the nation's critical infrastructure. New systems and 
processes need to be created to share this information with key 
decision-makers, without losing control over the information and 
tipping off terrorists about the focus of our efforts. A new system 
should be put in place to provide private-sector Chief Security 
Officers with clearances that give them access to critical information 
for their industries.

2. Difficult to quantify the effectiveness of any particular measure. 
There has not been a successful attack by al-Qaeda on US soil since the 
terrible day of September 11, 2001. Do we know why this is, with any 
certainty? Is it due to our offensive counter-terrorism efforts, in 
Afghanistan and dozens of other countries around the world? Is it due 
to the new capabilities given to US law enforcement agencies in the 
Patriot Act? Is it due to our investments in homeland security in the 
past twenty-two months, first in aviation security, and more recently 
for bio-terrorism, border security, critical infrastructure protection, 
and port and cargo security? The federal government needs to develop 
classified capabilities to measure effectiveness, and understand what 
is deterring and preventing new acts of terrorism.

3. Difficult to measure the indirect costs of any security investment. 
It is easy to calculate the direct costs of a given security measure, 
as a line item in an agency's budget justification or an expenditure 
within a corporation's security budget. But it is not simple to account 
for key indirect costs. What is the overall cost to the American 
economy if trucks face significant delays at the Canadian and Mexican 
borders, or if cargo containers stack up at ports-of-entry due to new 
screening requirements? What is the societal cost of a project that has 
a significant negative impact on the civil liberties and privacy 
protections of US citizens? These are often subjective calculations; it 
is possible to come up with widely different estimates, depending upon 
what assumptions you use about the economic value of these items.
    These three obstacles create challenges to the development of a 
portfolio investment framework and resource allocation process for the 
Department, but these challenges are not unsolvable. It is critical 
that the Department move forward to develop capabilities to make these 
assessments, and ensure that taxpayer's dollars are used wisely to 
fight terrorism. I hope that you and your fellow Members of Congress, 
as stewards of these resources, will provide the Department with the 
tools that they need to adapt best practices from the private sector 
and make effective investments in homeland security.

III. Best Practices in Homeland Security: Procurement
Once the Department establishes its investment priorities, it will need 
to turn to the private sector to carry out key projects that advance 
the policies developed by Congress and the Administration. Procurement 
is another area where attention to best practices is essential; in the 
area of homeland security, it is imperative that US citizens get a 
strong return on their investment in the private sector's contribution 
toward the development of homeland security solutions. With the 
announced appointment of Greg Rothwell as the Chief Procurement 
official for DHS, I have the utmost confidence that the procurement 
shop he runs will follow a full and open communication policy with 
industry, favoring early and arms-length interaction. Al Martinez-Fonts 
is also playing an important role, opening doors for the private sector 
to work with the Department.
    But their actions alone will not be enough. The entire DHS system 
of buyers for information technology, intelligence and management 
services has to reach agreement on needs and desired outcomes and these 
needs must be translated into the requirements that drive the 
procurement process, before even the most talented management team can 
deliver results. The term ``results'' in this case means: successfully 
engaging the private sector to provide end-to-end solutions for 
homeland security, sound value to the government buyer, and minimum 
risk to Congress and the taxpayer that public funds are well spent. 
Five important steps directly related to the procurement process should 
be followed to accomplish these results:

1. Build the capability to develop basic requirements, frameworks, 
standards, and architectures for HLS within the DHS
    The administration has asked industry to develop basic requirements 
and standards. But in the current economic climate, the lack of a 
process to develop an industry solution and competitive incentives has 
kept many industries from taking the necessary steps to ensure an 
adequate level of increased security. Industry measures have been 
insufficient in the area of cyber-security, and in the chemical and 
trucking industries. Almost two years after 9/11, there are few agreed-
upon standards for homeland security.
    The Department needs to develop a capability to set standards as a 
cross-check for industry solutions, and as a credible alternative when 
an industry fails to step up to the plate. This capability must be 
established more quickly than current hiring activity at DHS indicates, 
and using private and non-profit technical expertise. Some of the 
reporting requirements related to standards in the FY 2004 
appropriations bills will help DHS officials to focus on these issues.

2. Work with the private sector to create rapidly scaleable homeland 
security solutions, by using pilot projects to demonstrate existing 
industry solutions and build new systems from proven components.
Such programs should employ commercial off-the-shelf technologies in 
new ways to address emerging HLS market requirements and to reduce 
execution risk of near-term operational systems. Pilot projects need to 
be designed, funded, and managed to completion more quickly than is 
currently the case, and the use of commercial off-the-shelf 
technologies will help to speed up the process. Standards should be a 
key component of these pilot initiatives.
For longer-term projects, the new HSARPA should adopt proven DoD 5000 
methodologies for research, development, and prototyping, and bring DoD 
expertise to bear on development of these new technologies.

3. Where industry is taking the lead to develop standards, the DHS 
needs to push for accountability.
The Department needs to create deadlines for industry proposals to 
create their own standards, and push them toward intra-industry 
cooperation. It needs to provide a forum for discussion of these 
issues, and draw public attention to the need for standards and a 
generally agreed upon solution.

4. In the absence of consensus on standards by the deadline, DHS and 
other federal agencies (e.g., Department of Transportation) should take 
control and move the process into a rule making or regulatory 
framework.
    Here the federal government can make some of the key technical 
calls that hinder agreement, choose the best system and set standards.
    The choices between basic requirements, frameworks, standards and 
architectures can be tantamount to a choice between different 
technology solutions and products. But such choices also remove 
investment risk for the private sector, and will stimulate their 
investment in compliant technologies, improving the industry's 
security.
    The value of the many pilot projects that are currently underway 
within DHS can only be harvested when the government takes the results 
of the pilots, makes a decision about overall architecture, and applies 
these lessons to choose the best solution.

5. Increase transparency of information about procurement 
opportunities.
    The government website Fedbizopps.gov states that it is intended to 
be the ``single government point-of-entry for Federal government 
procurement opportunities over $25,000.'' But the site is used unevenly 
by government procurement organizations. Small-scale procurement 
opportunities, for janitorial services and uniforms, are often found on 
the site, but information about larger, more strategic projects is 
sometimes missing. And the site provides no means for companies to 
learn about opportunities that are sourced using Government Wide 
Acquisition Contracts (GWACs) or opportunities as subcontractors on 
large projects. Greater transparency would increase the involvement of 
small firms in the procurement process and lead to more robust 
competition.
    The extent to which government should be involved in the process of 
standard setting is of course open to debate. I believe that there is a 
range of possible roles--from government inspiration to government 
regulation. But it is vital that government ensure that standards are 
ultimately set. The private sector will require varying degrees of help 
in this respect. But we must have agreement on standards to diminish 
waste between incompatible solutions and efficiently move solutions to 
scale as we work to improve public safety and security here at home.

IV. Conclusion
The Department of Homeland Security should develop best practices in 
the two key areas discussed above. It should adapt private-sector 
portfolio investment tools to inform decisions about how to protect our 
nation against the threat of terrorism. If we don't address the right 
threats and focus in the right areas, there could be critical gaps in 
our ability to deter terrorism. Portfolio investment tools are ideal 
for this purpose and should be employed by Agencies, OMB and 
Appropriators. Furthermore, the federal government can more effectively 
harness the capabilities of the private sector by ensuring that 
reasonable requirements, frameworks, standards, and architectures are 
developed to optimize our investments, improve security and deliver 
value to the American taxpayer.

V. Key Excerpts from ``The Homeland Security Market: Corporate and 
Investment Strategies for the Domestic War against Terrorism.''

On public-private cooperation:
    ``Right now, the United States finds itself at a pivotal point in 
the evolution of homeland security. The success or failure of the 
government's efforts to improve the country's defenses against 
terrorism depends upon a number of factors, not least of which is the 
effectiveness of its interactions with the private sector. The private 
sector has often lacked a sophisticated understanding of government 
behavior, and the government's outreach to the private sector has been 
haphazard. A new spirit of public-private cooperation is essential for 
the successful implementation of a national homeland security 
strategy.''

On integrating an understanding of the terrorist threat into companies' 
strategies:
    ``Smart companies can increase their chances of developing 
partnerships with the federal government if they develop systems and 
solutions that protect the country against threats that are real but 
not yet high on the government's radar.''

On the size of the homeland security market:
    ``Many analyses of the homeland security market have confused the 
federal government's budget for homeland security with the size of the 
homeland security market. . . . The size of the US federal homeland 
security market is estimated to be the following: $7.26 billion in FY 
2002, $6.13 billion in FY 2003, and $7.21 billion in FY 2004.''

On the role of integrators in carrying out homeland security projects:
    ``The Integration category includes companies that are responsible 
for piecing together disparate technologies and processes to create 
functional homeland security systems. Firms in this category can be 
classified into four industry groups: aerospace, consulting, IT and 
high-tech, and specialized government contractors. . . These firms play 
a key role in homeland security because of the market's heterogeneity 
and complexity. Only they have the capacity to develop cross-cutting 
solutions and solve problems for the government. The homeland security 
market is made up of businesses in a range of industries--including 
information technology, telecommunications, aerospace, management 
consulting, logistics, engineering, high-tech equipment, biotechnology, 
and human resource services. This long list is far from exhaustive. 
However, among the industries participating in the homeland security 
market, only a handful have the capability to provide the government 
with fully-elaborated ``solutions'' to many of the homeland security 
challenges that it faces. For example, upcoming efforts to create a new 
border security entry-exit system will require input from companies 
focused on biometrics, physical security, database integration, vehicle 
scanning and identification, and secure communications, among others. 
Only companies like the ones above could manage such a project and mold 
these disparate technologies into an integrated system.''

On the security value of homeland security investments:
    ``A good homeland security investment should offer clear and 
compelling value to a government buyer, who responds to different 
incentives than a typical private-sector buyer, as discussed in Section 
1.1. The product or technology should deliver a comprehensive 
``solution'' to the government, and the company should be able to 
describe this solution in an elevator speech. If a company can say 
convincingly that Product X provides an end-to-end solution to protect 
the country against the container security threat, for example, then it 
will have an advantage over competitors that offer only stand-alone 
technologies or parts of solutions. And if a company can say, without 
exaggeration, that with a certain product or technology ``the 9/11 
terrorists would have never made it on the plane that day,'' then the 
company is being responsive to government buyer values.''

On the effect of privacy on homeland security investments:
    ``The right to privacy is a fundamental and fiercely protected 
value in the United States and other parts of world, and numerous 
advocacy groups relentlessly highlight any adverse impacts on privacy 
rights. Many homeland security initiatives have been stopped in their 
tracks during the last 20 months due to privacy issues, such as 
Operation TIPS, an effort to enlist several million citizen informants; 
and the boldly named Total Information Awareness program, designed to 
troll private sector databases in search of patterns of terrorist 
behavior. Any potential product or technology needs to be conceived 
with this constraint in mind; and breakthrough technologies that 
increase security without having a negative impact on privacy could be 
particularly attractive.''

On the effect of business efficiency on homeland security investments:
    ``Another constraining force on homeland security products and 
technologies is their impact on business efficiency, both from a 
business unit-level operational perspective and from a system-level 
supply chain perspective. From an operations standpoint, if a baggage 
screening system at an airport provides 100% detection of explosives 
but can only scan one bag per minute, then it will cause unacceptable 
bottlenecks at airport check-in points. The right balance needs to be 
struck in any system between security and operational efficiency: this 
balance will depend on an assessment of the threat and the severity of 
the economic impact of the security measures. This same dynamic holds 
true for the global supply chain. For example, if a cargo container 
inspection system improves security but severely disrupts the normal 
flow of commerce between and across national borders, then its 
application becomes infeasible. Products and technologies that both 
improve security and business efficiency are likely to be particularly 
attractive targets for investment. Such products have dual-use futures; 
for example, a system to improve the security of commercial trucks 
could also have applications that improve fleet productivity.''
Excerpted from ``The Homeland Security Market: Corporate and Investment 
Strategies for the Domestic War against Terrorism,'' by W. Scott Gould 
and Christian Beckner, The O'Gara Company. May 2003. Copy can be 
ordered for no charge at http://www.ogara.com/.

    Mr. Camp. Mr. Katz.

  STATEMENT OF B. JEFFREY KATZ, VICE PRESIDENT OF MARKETING, 
                       ATMEL CORPORATION

    Mr. Katz. Thank you, Mr. Chairman. Atmel Corporation 
appreciates the opportunity to testify before the subcommittee.
    Atmel is a semiconductor manufacturer. We make computer 
chips, and our chips are used in systems. We are also a 
principal member of an industry and government consortium 
called The Smart Card Alliance, which is a group of competitors 
and interdependent companies that promote and educate the 
public on the use of security technologies both for personal 
identification as well as transaction activities such as bank 
cards. I am going to talk about something a little different 
from those things today, but I wanted to give you that 
background.
    Today I am going to testify about some technologies that 
can be used for container security.
    Since September 11, much of the attention that the public 
has had on homeland security has been aimed at personal access 
into the country. This is similar to, but different from the 
port security where I am going to talk about container 
security.
    Cargo containers, unlike people, cannot be identified by 
biometrics. They are, by their very nature, anonymous. They 
look alike and they spend considerable amount of time where 
they may or may not be monitored.
    There is a guy, Mr. Stephen Flynn, who is a national 
security expert at the Council on Foreign Relations, and he 
observed, ``The bottom line is that anybody in the world right 
now who has between $1,600 and $3,000 and 30 tons of material 
can order a box, have it delivered to their home or workplace. 
They can load it to the gills, close the doors, put a 50-cent 
lead seal on it, and it is off to the races.''
    Today, there is some 12 million cargo containers in the 
world, and every year about half of them go through U.S. ports. 
They travel on the back of trucks all over our country, and 
they contain the same tamper-evident technology to secure them 
that was in use at the time of Alexander the Great. We can do 
better.
    We believe the DHS must and is playing a leadership role in 
improving container security in our ports and around the 
country. In particular, much of this testimony relates to 
secure container initiatives. There are two major requirements, 
and I am not going to be an expert on both of them.
    The first is that the system integrator contractors, as 
well as the shipping companies, must be encouraged to adopt and 
support the available technology. I will help you on that if I 
can. But the second one is that the Department and the 
government must establish and negotiate appropriate policies 
and procedures to be followed worldwide by our trading partner 
countries and shipping companies at the point of origin and all 
throughout the transport life of a container.
    With the technology I am going to show you and reliable 
inspections at the source, a precise history of container 
movement and activity getting in and out of the opening of the 
container, as well as its contents, can be logged for use by 
receiving inspectors and logged in the container itself. Using 
relatively inexpensive, embedded security chips, global 
positioning chips and license-free radio receiver chips, as 
well as Smart Card worker IDs, every access to the container, 
by whom, and at which precise location can be safely stored in 
tamper-resistant devices that are built into and control the 
container locking mechanism.
    Mr. Katz. And container activity history can be broadcast 
wirelessly to logistic centers and inspection points. Even as 
the cargo liner approaches the port, the Coast Guard or Customs 
officers can receive encrypted information directly from each 
container indicating what is in it and what containers have 
been opened, by whom and where since the original embarkation 
inspection, and which containers have remained intact.
    We hope the committee will encourage the DHS to accelerate 
programs to enhance container security with this easily 
available technology. The technology is only part of the 
solution. It is for the Department and our diplomats to 
negotiate the policies to use the technology. I hope to show 
you that the technology exists today. Please refer on your 
desk, you should have a little handout here. I would like to 
walk you through a couple pages of it.
    The first page is called system architecture, and there you 
see a cartoon that implies a cargo liner on the left with its 
own GPS navigation equipment, as well as containers. Each 
container has a secure locking unit, which also has an ISM band 
license-free wireless transmitter and a GPS receiver. Each GPS 
receiver is only about a square inch, a little module about a 
16th of an inch thick.
    With those electronic items on the container, each 
container can communicate with the ship when it is in port--or 
when it is underway, and unavailable to the GPS system, any 
accesses to it. When it is in port or on a truck and the 
container is exposed to the sky, then it knows exactly where it 
is and can broadcast that to control centers.
    If you flip down to the third or fourth page down, the one 
that says ``container access control,'' you can see that there 
can be attached to each container a small module which manages 
the lock on that device, much better than a lead seal. It has 
in it an embedded security chip, which can hold encrypted and 
tamper-resistent information, and it also has within it the 
transceiver chip which allows the container to broadcast 
activity to a local control center, or using the GSM system 
worldwide, even through the phone lines could send long 
distance remote messages.
    To access the container, an authorized user will have an ID 
card which wirelessly can unlock it while the lock module logs 
who it is that is doing it. This can also be done with 
biometrics to indicate the authenticity of the user.
    So that is the heart of the system, and then it takes, of 
course, the back-room stuff that goes into the control centers 
to manage it.
    So the last page of the handout indicates some of the chips 
which are all available today. These are available from my 
company Atmel, but also from companies as well. The GPS 
receiver module, I mentioned earlier, is about a square inch. 
There is also the tamper resistent smart card microcontroller 
chip that is used in bank cards and in telephone communication 
cards, as well as personal ID systems; and the license-free ISM 
transceiver chips, those are individual single chips. Nothing 
on that chart costs more than about $10, and so even if you put 
them inside the bombproof, bullet-proof boxes, it is an 
economically attractive, commercially available system. We hope 
the committee will encourage the Department to use such 
technologies.
    [The statement of B. Jeffrey Katz follows:]

                 PREPARED STATEMENT OF B. JEFFREY KATZ

    Atmel Corporation appreciates being invited to testify before this 
committee. I'll briefly describe Atmel and myself as a witness.' Based 
in San Jose California, Atmel is a publicly owned 18-year old 
semiconductor manufacturer. We make a broad range of integrated 
circuits in our plants in Colorado and in Europe, including several 
types that are directly aimed at security applications such as Smart 
Cards for banking, personal identity, computer security, and 
telecommunications, biometric scanners, and a variety of radio 
frequency communication chips. Atmel's annual revenues comprise about 
$1.2 B, more than half of which is shipped outside the US, making us a 
net exporter. I was educated as a computer engineer. I have worked for 
Atmel for about 14 years, in my current capacity. Before joining Atmel 
I held various design engineering, marketing and operational jobs at 
Unisys, Encore Computers and Intel Corporation.
    Atmel is a principal member of an industry-government consortium 
called the Smart Card Alliance. Its members, comprising interdependent, 
sometimes competing enterprises, cooperate to educate potential users 
of Smart Cards and related security technologies, and advocate their 
use where appropriate. The Alliance is active in publishing white 
papers and presenting seminars, especially in the areas of secure 
personal identification, physical access, biometrics, and transaction 
processing. Some if these educational activities have been aimed at 
Department of Homeland Security programs such as the Transportation 
Workers 10 Card, and the US Visitor program. I have been personally 
involved in many of these activities as a contributing author and 
seminar presenter.
    Atmel, and the Smart Card Alliance would like to commend DHS 
leadership for taking initiatives to be visible and forthcoming in 
explaining their needs and their opportunities for industry engagement, 
and receptive to inputs. It's not always as easy as we would like for 
industry participants, especially subcontractors to the primes, to 
locate decision-makers in the Department. But we believe the Department 
is moving in the right direction and exercising its leadership role.
    Since Sept. 11, 2001 the American public, the Congress and the 
newly formed DHS have paid considerable attention to the issue of 
personal identification. The notion of assuring that individual people 
are indeed who they say they are, and that they are authorized to 
access certain physical premises and electronic networks, has been 
thoroughly scrutinized and several programs are in pilot phase to 
evaluate technologies and operating procedures. Indeed my own company 
has been active in proposing some of these identification systems. This 
testimony is aimed at a different aspect of Homeland Security, 
protecting our ports of entry in the area of cargo container security. 
This aspect represents a potentially far greater vulnerability than 
that of individual people gaining inappropriate access. Especially in 
light of the highly conspicuous personal security screening that we 
have deployed in the past two years, and the increased interest in 
using biometrics and other sophisticated means to authenticate personal 
identity.
    Cargo containers, on the other hand, are by their very nature 
fairly anonymous They look pretty much alike, they spend considerable 
time exposed in relatively non-secure environments, often unattended 
and unmonitored, and they can hold significant amounts of potentially 
dangerous material. .
Mr. Stephen Flynn, a senior national security expert at the Council on 
Foreign Relations, has observed: ``The bottom line is that anybody in 
the world right now who has about $1,600 to $3,000 and 30 tons of 
material can order a box, have it delivered to their home or to their 
workplace. They can load it to the gills, close the doors, put a 50-
cent lead seal on it, and it's off to the races.''
    Today there are some 12 million cargo containers in use worldwide. 
Every year roughly half of them come through US ports. And they travel 
on the back of trucks all over our country. With the same tamper-
evident security technology that was used in the time of Alexander the 
Great.
At Atmel Corporation, we believe the issue of container security has 
been relatively less explored, both by the DHS and by the media. And we 
believe there are readily available technologies that can be deployed 
fairly inexpensively, to considerably improve this potential weakness 
in our national security. Today I plan to describe to you some off-the-
shelf semiconductors that can significantly upgrade container security. 
This semiconductor technology is all available from Atmel Corporation, 
as well as several other chip makers.
    We believe DHS must and is playing a leadership role in improving 
container security in our ports and around the country. In particular, 
much of this testimony relates to the Secure Container Initiative. We 
believe there are two major requirements: System integrator 
contractors, as well as shipping companies, . must be encouraged to 
adopt and support the available technology. And the Department must 
establish appropriate policies and procedures to be followed worldwide 
by trading partner countries and shipping companies at the origin point 
of cargo shipments, and along all the stages of transport to out port 
of entry and beyond. With this technology, and reliable inspections at 
the source, the precise history of container movement, as well as 
contents, can be logged for use by receiving inspectors. Using 
relatively inexpensive embedded security chips, GPS chips, license-free 
radio transceiver chips, and wireless Smart Card worker and inspector 
IDs, every access to each container, by whom and at which precise 
location, can be safely stored in tamper resistant, devices that are 
built into and control the container locking mechanism. And container 
activity history can be broadcast wirelessly to logistics centers, and 
inspection points. Even as the cargo liner approaches a US port, Coast 
Guard or Customs officers can receive encrypted information directly 
from each container, indicating what is in each container, which 
containers have been opened, by whom and where, since the original 
embarkation inspection, and which containers have remained intact. We 
hope the Committee will encourage DHS to accelerate programs to enhance 
container security with this easily available technology. The 
technology is only part of the solution. It's for the Department, and 
our diplomats, to negotiate policies to use the technology. But I hope 
to show you that the technology exists today.
    Please refer to the attached diagrams for a brief explanation of 
how these technologies can be deployed to greatly improve container 
security.
    Thank you again for the opportunity to testify before the 
committee. Atmel is always available to discuss these ideas, as well as 
our technologies and proposals for secure personal ID, with appropriate 
people in the Committee, the Department, and the system integrator 
contractor community.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Camp. Thank you very much. Dr. Gould, I have a question 
about this decision-making framework you have sort of laid out 
here, which I appreciate you doing. You, also in your written 
testimony, mention that Congress needs to provide additional 
tools to the new department to help them to adapt these best 
practices as you have described from the private sector for 
investment decisions in homeland security.
    Can you offer just a little more elaboration on that and 
whether you see these additional needs that Congress needs to 
address?
    Mr. Gould. Certainly, Mr. Chairman. I think importantly 
appropriators in the 2004 budget process have begun to identify 
very specific requirements for reporting from the Department of 
Homeland Security back to the Appropriations Committees that 
begin to lay some of this foundation. The most simple and yet--
and most profound thing I think Congress can do at this stage 
is simply ask for that information. The Department of Homeland 
Security will then need to find the right kind of people and 
partners with the private sector to articulate what those 
requirements, standards and architectures are, and then bring 
that back to senior decision-makers and Congress at a very 
fundamental level. It would be enormously helpful to have that 
simple request and perhaps some earmarking or funding that 
would make that possible.
    Mr. Camp. Thank you.
    Captain Salloum, you mentioned the various security 
programs and their overlap and the effect on the private 
sector, and I guess I would like to little further comment from 
you on the effect of this overlap on commerce and what might be 
done to streamline the process, obviously, to make sure that 
cargo is tracked and is screened and is secure, but if you 
could just elaborate a little bit, I would appreciate it.
    Mr. Salloum. Thank you, Mr. Chairman. With regard to the 
tracking devices, this definitely is an important issue with 
regard to the security, but I believe also there are other 
ideas out there and opinions--the same thing that I am saying 
today. It is good to know where the container is, but it is 
very important to know what is inside of the containers.
    And with regard to the overlaps, Mr. Chairman, Homeland 
Security, when they start--when the United States Government 
decides to protect our borders and they place all these 
initiatives, they are very good initiatives. And as I said in 
my testimony, it is a good start. And they couldn't do other 
than what they did, because the logistics systems already is 
fragmented.
    As an example, one shipment starting from Mexico ending in 
the United States could involve about 19 different companies 
and 11 proprietary systems. So what that did is they took the 
flow of the shipments and they concentrated on the different 
entities. They set an example for the ports where we are going 
to place security container initiatives. For the corporate 
shippers, we are going to do C-TPAT, Customs Trade Partnership 
Against Terrorism. But we believe it is as important to have 
initiatives for the corporate shippers. It is also important to 
consider the individual shippers, because they do represent 
somewhere around 30 percent of the cargo getting to our 
countries.
    So it is important to have one system--it could be one 
system like the airline industry, the system today managing the 
airline passenger ticket industry. We need such a system in the 
freight industry by which you can apply all this security 
measures, getting the data, global data and apply the 
artificial intelligence to protect our borders.
    Protecting our borders, Mr. Chairman, doesn't start here. 
It starts from where the shipment originated, and also starts 
by knowing that particular warehouse, what his activity is, and 
this can be done only if we achieve what the airline industry 
has achieved from the passenger side, a horizontal system that 
provide about--I mean, provides efficiency, commercial benefit 
to the global logistics industry which they need it, definitely 
they need, and they will adopt it because they have commercial 
benefits to it. And then we can definitely have the security 
that we are seeking for. Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    The Chair will now recognize members for questioning. The 
5-minute rule will apply, and the Chair recognizes the ranking 
member, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I have various 
questions. First I would like to ask all of you, because it has 
to do with this whole issue of comprehensive risk and a 
vulnerability assessment of infrastructure, and we have been 
trying to figure out the Department of Homeland Security and 
how it is coming along with that particular assignment, let's 
say because we believe it is incredibly important, in 
particular if we are going to invest from a taxpayers' 
perspective in hardening some of this or in working with some 
of the cyber security issues that we have.
    I would like to ask each of you as private companies, have 
you been working with the Department? Have they approached you? 
How have you found the process, if you have, or have they not 
even contacted you with respect to how to handle infrastructure 
assessment? I guess I would start with the Boeing company.
    Mr. Stephens. Infrastructure protection--and I think the 
analysis you talk about, our observation is there are a number 
of elements within the Department making assessments in their 
particular areas, and I think the Department has yet to come 
together in a fully integrated way, you know, to look at that 
as an integrated system, not unlike a number of companies that 
come together--and I can use the Boeing Company example. As we 
have come together, it is taken a while to make sure we have 
got all our elements working together. There is a dialogue 
underway. I know that we are sharing information about the 
Boeing critical infrastructure that we have back with the 
different and the potential threats that go against our systems 
each and every day as we operate as a commercial enterprise, 
but I think the long and the short of it is there is a ways to 
go yet to get some consistency in the discussion standards 
between the private industry and the Department.
    Ms. Sanchez. Very nice way of putting it.
    Captain.
    Mr. Salloum. Simple. No, we did not and they did not. And 
we believe--we know that after September 11, somewhere about 
30,000 ideas have been presented to the United States Customs. 
So which one is the right one? So definitely it is an enormous 
task for them to decide which one is the right one. We can 
distinguish the system we are proposing from everybody else, 
because we have been working on it since 1998, and from a 
commercial perspective. It is to provide this horizontal 
approach for the corporate shipper, for the ports of Los 
Angeles to resolve the congestions at the port of Los Angeles.
    So everybody in the system must have a benefit to the port, 
the corporate shippers, carriers, everybody. So we started 
doing this since 1998.
    Now, after September 11, efficiency must iclude tracking. 
It means visibility. It means knowing where the shipment is and 
who loaded it and when it was loaded. It means three 
dimensional security. When I contract you to load it, how long 
can it take to load the containers? What is your forecast, how 
long should it take to get the shipment there? In reality, what 
have you done? This is three-dimensional security that not a 
lot of people talk about, which is important for the efficiency 
and commercial benefits.
    So having said that, it is an enormous task for them to 
decide which technology is the right one, and we are working 
toward that to let them know that there are certain systems out 
there that could help their efforts to achieve the security we 
are seeking for.
    Ms. Sanchez. Thank you.
    Dr. Gould, since I used to work for Booz Allen, I love your 
little presentation and your thought processes. Can you tell us 
have you been consulting at all towards this measure with 
anybody in the Department of Homeland?
    Mr. Gould. Thank you for asking. One of the--the short 
answer to your question is obviously that comprehensive risk 
and vulnerability analysis has not been conducted. It has not 
been finalized, and it remains a barrier, I think, to the 
private sector being able to build the kinds of systems that we 
ultimately need. It is certainly a barrier to the private 
equity market that looks to pick technologies and pick winners 
early in the cycle without knowing which way a government will 
go, there is an enormous effect here in terms of market-making 
capabilities.
    The O'Gara company has sponsored philanthropically a 
symposia with one of the leading think tanks here in town, the 
Center for Strategic International Studies. During some of 
those sessions we have had lengthy discussions of give and take 
at which members of the Department of Homeland Security were 
there. People like Al Martinez are doing a great job trying to 
open the doors and have communication. The new head of 
procurement, Greg Rothwell, for the Department of Homeland 
Security, is one of those open dialogue, open communication 
senior executives from the career branch, but in our view this 
is just beginning. It needs additional attention and focus.
    Ms. Sanchez. Mr. Katz--and I would also like to have you 
answer--can you just sort of walk us through how much it would 
cost and whether these little chips are reprogrammable or 
whether you buy one each time for a container, and how do you 
know it is secure the whole way, I guess?
    Mr. Katz. I will answer the first question first, and then 
the more fun one, I suppose. In answer to your first question, 
Atmel has not been consulted by the Department of Homeland 
Security about infrastructure assessments. I doubt if they 
would have consulted with any semiconductor manufacturer in 
that regard. That is not what we do.
    I can comment, though, that we have observed that the 
Department is very visible and forthcoming in describing what 
they think they need and also trying to give prime contractors 
access to them. It is not always apparent to a subcontractor 
like Atmel, where to go in the Department.
    To your second question, all of the chips that I described 
earlier are indeed programmable. With appropriate 
authentication techniques their content can be changed. They 
can't be changed if you don't have the right authorization to 
do so. So each container can be used many times once you equip 
it.
    Ms. Sanchez. And just--I know my time is up, but I have one 
little quick question on this issue. So we have got all these 
thousands--hundreds of thousands of containers, millions going 
around the world, and we have got these little chips on all of 
them. They are sending information. There are new satellites up 
there to have to move them and send it. Isn't that just a whole 
bunch of information going through the air, and where does it 
go? And how do we, on time, get to this so that we know someone 
has opened a container before it gets to Los Angeles, for 
example?
    Mr. Katz. Well, each container can take care of its own 
records. The satellite use is only to tell the container where 
it is so it can record that information. The satellites are 
there. They are being used all the time, and this is just 
another use for them. There is no special information about the 
container that goes through the satellites, unless some system 
were designed to make remote calls to report status. That isn't 
what we envision necessarily, though.
    What is going to happen, though, is that in local control 
centers, whether they are at ports or on inspection ships or at 
cargo depots around the country, containers can broadcast 
locally, not all through the whole ether all over the world, 
but they can broadcast locally to inspection authorities which 
ones of them have been opened and by whom and when and where.
    Mr. Cox. Thank you. I want to again thank our panel.
    I wonder if I can ask you to think beyond what we have been 
talking about here for just a moment to the question of 
incentives and how it is that we are going to get the private 
sector, which owns so much of our critical infrastructure and 
has so must have to do with achieving our objectives here to 
play along. One of the things that we have been talking about 
on this committee with other witnesses at other hearings is the 
liability system and the insurance system and whether or not 
these can be carrots and sticks that we use to bring people 
along. If we are trying to get people to deploy technologies, 
if we want to adopt the recommendations that you are making, 
how can we encourage people--how can we set up a system of 
incentives, restraints and penalties so that--in a Nation of 
280 million people without a command and control system that we 
get the results we are after? Anyone that wants to leap at that 
with creative thought is welcome to do so.
    Dr. Gould.
    Mr. Gould. Certainly. It is a terribly important question, 
because at the end of the day with over 85 percent of the 
critical infrastructure owned by the private sector and limited 
resources for the Federal Government, you have got to find some 
intelligent way to leverage resources.
    I think one very important step has occurred with new SEC 
regulations requiring disclosures by large companies about the 
activities they are taking in the security arena. This is one 
imposes a cost on industry. It is minor, but it illuminates 
what companies are doing to secure users of their technologies 
and services. It seems to me a simple and effective thing, and 
perhaps additional attention in this area along disclosure and 
connection with the financial audits would have some 
substantial benefit.
    The second area you already touched on had to do with the 
insurance industry. We have seen the benefits over time in 
property and casualty for fire insurance where the knowledge 
the insurance companies have, through a series of discounts on 
insurance premia, invite constructive actions that companies 
can take to reduce the risk of fire. Analogously, I think we 
could do that in the homeland security and terrorism arena by, 
again, developing standards, beginning to develop an industry 
perspective on what specific steps we need to do to harden 
targets, protect our cyber assets and the like and that those 
discounts over time would both create a market for that 
business and incentivize business to lower their costs and 
increase their investment in security.
    Mr. Cox. Mr. Katz, you also wanted to--.
    Mr. Katz. Yes. I would comment that in your earlier 
remarks, Mr. Cox, you mentioned that not only do we want to 
make sure the ports are safe, but that the material moves 
smoothly.
    As Captain Salloum mentioned earlier, we need to do this 
globally. If we had a system where containers and shipping--the 
whole shipping system were known to be secure from the point of 
entry, from the point of origination until the point of entry 
and beyond--then we would make it pretty expensive if you are 
not part of that system to have to inspect individual 
containers that were not so protected, whereas allowing the 
protected and securely logged containers to flow through 
virtually uninspected. And the--.
    Mr. Cox. How would that expense be borne?
    Mr. Katz. By the shippers, I presume, the original people 
who consigned the materials. It would cost them more and take 
it longer to get the materials through--.
    Mr. Cox. The reason I ask is that obviously the ports are 
comprised of a lot of medium-sized enterprises, and I don't 
think what you want to do is set up a system that punishes 
them. They are not the shippers, and it is not within their 
control. So somehow you have got to put this cost on the 
shipper. How do you do that? With a tax, or what do you do?
    Mr. Katz. I guess that would have to go back to the 
shipping companies to be able to have a two-tiered rate. I am 
not sure we can legislate that or do anything more than 
encourage it, but we can say it is going to take longer if you 
do it the old way, and if you use the new technology, it gets 
through quicker, and there will be that incentive for them to 
charge more to their originating business partners.
    Mr. Cox. Captain Salloum, you wanted to add also.
    Mr. Salloum. Yes, sir. It is a very good question, and the 
system we are proposing or we are talking about is a system 
that provides--first of all, increases the ROI of every 
participant in the flow of a shipment, because we add to it 
efficiency. I can give you an example, because Ms. Sanchez used 
the port of Los Angeles as an example. One of the things for 
the port--I mean, when I say increase the ROI, we are talking 
about corporate shipper, low-volume shippers, carriers, ports, 
everybody involved in the supply chain. Also individual 
shippers, everyone involved in the flow of a shipment is a 
participant in the system, and they will increase their ROI and 
reduce their costs.
    And to use that example, port of Los Angeles, port of Los 
Angeles by 2007, the statistics say they will be out of space 
and they cannot expand any more. And one of the things 
happening today from an efficiency side, containers are sent 
and triggered from the factories, all of them to the ports, and 
they stay at the ports waiting for the ship to come in. So this 
is an added cost to the shipper because he pay for the storage. 
Second, it is a problem for the port. He cannot expand no more. 
The key is in efficiency.
    So what does that mean, efficiency? What we are talking 
about is the integration of the carrier service on the ship 
with the trigger of the cargo from the factory. So the cargo 
get triggered, integrated with the vessel, arrival to the port. 
So the cargo gets to the port, and we minimize the time of the 
container at the port so we will have the efficiency that port 
of Los Angeles requires. That is one.
    Once we do that, what would happen? The shipper, he pays 
less storage. He is happy. The ship doesn't stop too much at 
the port because there will be a place to enter and move the--I 
mean, load or unload the containers. Port of Los Angeles is 
happy. Also from a security aspect, the container does not lay 
there for long time so there is less access for people to 
tamper into the shipment.
    So as you can see, this is one example of 50 I can give 
you--provide you of how we can combine the commercial benefits 
and the security compliance; and in other words, the system 
must recognize--and we have these numbers we can provide you, 
sir, if you would like, those numbers. The system must 
recognize somewhere about 10 to 15 percent of saving on supply 
chain on individual shippers, and the system itself now will 
ask for 2 percent. It will fund itself. So we will ask 2 
percent from these savings. And we will not charge any 
additional charges to anybody else involved in the shipment.
    This is how it would work, and this is how you, sir, can 
guarantee the global participation so we know the activity of 
that famous warehouse in Yugoslavia, moving cargo from 
Yugoslavia to Italy. We will know what he usually moves, and to 
where, where he pick up his empty container and all of the 
above. So that is what the system needs in order to achieve 
security, local security. And by the way, sir, as you know, we 
do also have interests overseas, and it is important also to 
address that. Thank you, sir.
    Mr. Stephens. Sir, Mr. Chairman, one of our observations as 
we are working in the aviation industry is it is a free market 
economy, and free market economies tend to move based on the 
financial incentive rewards that all the participants 
participate in.
    One of the things we noticed, and I am certain that you and 
your committee noticed is that when it came time for the 
implementation of the aviation security requirements this last 
year, you certainly probably got different feedback from the 
airlines that was different than the airports and was different 
than the other elements of the industry moving forward, plus 
the legislation that was put in place to go secure America's 
airports.
    And it became very clear that the financial relationships 
were not well understood by all of the members. We have 
actually started an aviation security study that involves the 
Airline Transportation Association, the American executives for 
airports, the American Council--or the Airports Council 
International, the Transportation Security Administration. We 
have invited the Federal Aviation Administration and Boeing to 
participate, and we have three key objectives. The first is to, 
in fact, define the financial relationships amongst all the 
stakeholders. This is the first time all of the parties have 
sat down together to build a financial model that talks about 
the relationship in a free market economy.
    The second outcome of the study is to make sure we all have 
a common understanding of the aviation security systems that we 
have in place so that we can allow the third element to go 
forward. When there are recommendations for changes in the 
system, we understand the financial implications so that we 
know the failures of each of the elements.
    So, for example, if you want to increase the security tax 
on the flight tickets, we will know what the airlines will do. 
The flight data says we will have a reduction at the macro 
level in the number of passengers travelling. That has an 
impact on the airports and the airport fees that get charged, 
which has an impact then on what you do for future systems.
    So from a recommendation standpoint, I believe that one of 
the things the Congress can do is help facilitate those 
discussions on a particular industry basis so that we really do 
understand the financial relationship and the security systems. 
I think as the captain pointed out, in the ideal world, we 
really would like industry to understand their responsibility, 
since we in industry own most of the infrastructure, the 
challenge we and the industry have is thus far a financial 
model has not included the cost for implementing the security 
requirements that now are really becoming fundamental to our 
society.
    Ms. Granger. [Presiding] Mr. Cardin.
    Mr. Cardin. Thank you, Madam Chair. I really want to follow 
up more on what the Department of Homeland Security could be 
doing to encourage the best practices and technology 
development for homeland security using a lot of the technology 
that you have all talked about.
    I represent a community where the port of Baltimore is 
located, and prior to September the 11th, we were inspecting 
somewhere around 2 percent of the cargo containers that came 
into the port of Baltimore. We are now probably up to around 8 
or 9 percent. So the vast majority of our containers are not 
physically inspected as they come into the port of Baltimore. 
That is not unusual. The technology that you have all talked 
about today would certainly help us in that effort to make the 
port safer and the containers better understood. It certainly 
would help in the intelligence aspects as to where we should be 
putting our efforts with the limited resources that are 
available.
    So I am interested in the technology that has been talked 
about as to how quickly that type of technology could be 
employed.
    I use the comparison with the airline industry. The airline 
industry wouldn't tolerate such a low amount of physical 
inspection. You feel very vulnerable if that was the case. But 
getting containers, which has been pointed out by the witnesses 
that you can--it is not difficult to get a container onto a 
vessel, and it could cause all types of harm. Our objectives, 
of course, are to inspect offshore, not--before it gets to the 
United States, but if it has been opened or tampered, that is 
the inspection at the port of--where it was loaded may become 
irrelevant.
    So I guess my question to you is as a--as private sector 
individuals who look at the free market, who have certain 
interests in the bottom lines of your company and you want to 
make sure it is profitable, but also are very concerned about 
the security of our country, what should the Department of 
Homeland Security be doing in order to encourage industry to 
use best practices to get that security information encouraged 
by the government and to make this work to get these systems in 
place as quickly as possible? What should we be doing that we 
are not doing, Captain?
    Mr. Salloum. The same question, sir, has been asked of us 
when we are meeting with the Belgium government, and they liked 
when we said that the security burden should not be on the 
shoulders of the government or on the port itself alone. 
Rather, to make this happen, we need the participation of 
everybody involved in the flow of the shipment. What does that 
mean? There are private sectors, and to have their involvement, 
the very simple and key element is to give them commercial 
benefits. Savings, increase their-- this is the best incentives 
that you can have the private sector to participate in this 
system. So that is a key, simply put.
    Mr. Cardin. Mr. Katz, you didn't raise your hand, but I 
want to get your response, because we haven't solicited your 
assessment on infrastructure. I understand that because of the 
industry that you are in, but you are doing the technology that 
could be modified to meet the objectives that I have in regards 
to containers in the port of Baltimore on our security issues. 
So why aren't we consulting you more?
    Mr. Katz. Well, the technology exists today from a chip 
point of view. It does require integrating, and a considerable 
amount of software and interaction with the rest of the 
infrastructure, and that is independent of the chip. So I am 
not sure that--.
    Mr. Cardin. From a financial point of view, that is not 
going to be done, I assume. I assume we are not going to put--
that that chip will not be put on every container in this 
Nation. We won't have the software in--we won't have the 
centers, et cetera. It is not going to be done, unless the 
Department of Homeland Security, the government, makes a 
decision that this is technology that we want to make mandatory 
in use of container security in this country, isn't that 
correct?
    Mr. Katz. That is correct, and I would point out another 
parallel situation. The State Department is going into a 
program to put the same sort of chips I described into 
passports. They have made an incentive to let all the rest of 
the world get on that program as well. Anybody that wants to be 
on the visa waiver program must have such a passport. So we 
could have anybody that wants to be on the cargo waiver program 
get on a technology program. That is something that the 
Department and the diplomats should be able to negotiate.
    Mr. Cardin. That is my point. I think that unless we have a 
strong governmental role here, that the free market itself, 
even with sensitivity on security, which it is clearly there, 
no question about it, it won't move forward, and that is why I 
guess it is a little frustrating as to what we can do to speed 
this thing up.
    Mr. Stephens. Congressman, if I can, I think that the C-
TPAT program and the wise investments that Congress has made in 
Operation Safe Commerce are great opportunities to see what the 
systems can look like, and then based upon that Congress in its 
wisdom can then look at the appropriate regulations, because I 
do believe that one thing that gets industry motivated are, in 
fact, incentives and the notion of being able to have a green 
lane to be able to move cargo through because you have met all 
the requirements for free entry; you have verified the 
integrity of those shipments moving on through. I think those 
are great programs that Congress can then help provide the pull 
that industry will get behind to deploy chips and systems like 
Mr. Katz is talking about that verify the integrity and allow 
you to move freely, because from our standpoint, it is about 
time and money and about being able to move commerce freely and 
efficiency the best way possible, recognizing we now have this 
new layer of security on.
    And the government is the best one to understand the threat 
and what worries we have to make sure we respond to, but 
putting those incentives in I think are exactly the right areas 
to go. But I think OSC and C-TPAT are going to give you all 
some good sense, and so my presumption is you all look very 
closely at how the investment that you are making in OSC will 
play out over this next year.
    Mr. Cardin. Thank you. I think the visa waiver analogy is a 
good analogy.
    Ms. Granger. Before I call on Mr. Markey, let me say that 
we are going to have a series of votes in just a few minutes. 
It is going to be a very long series. So this will be the last 
question that we will be able to ask. Because I think we are 
going to be on the floor for an hour or two hours.
    Mr. Markey.
    Mr. Markey. Thank you. Mr. Stephens, in your testimony you 
explain that Boeing applied its best practices knowledge to the 
airport security problem. I was struck by the portion of your 
testimony where I don't describe Boeing's efforts in this key 
security area. Quote, the government selected Boeing to 
accomplish what many consider to be an impossible job, help 
Americans feel more secure about air travel by meeting a 
congressional mandate to screen 100 percent of checked baggage 
by December, 31, 2002 at all our Nation's commercial airports. 
Many experts thought the job was not possible, but we 
accomplished that goal by building a world-class team and 
working hand in hand with our customer, the Transportation 
Security Administration and the aviation industry.
    In less than 6 months, Boeing led the effort to install 
6,000 explosive detection systems and explosive trace devices 
at 439 commercial airports around the country.
    Now, as you may know, cargo that is shipped aboard 
passenger airplanes amounts to 22 percent of all cargo shipped 
in the United States, and currently none of that cargo is 
screened before it is boarded on to passenger airplanes.
    My question to you is we have kind of got this cargo 
conundrum now, and many people are saying, oh, it is impossible 
to screen cargo before it goes onto passenger planes.
    So I would ask for your comment on that, given the 
experience which you had at Boeing with the baggage check 
problem.
    Mr. Stephens. Sir, I certainly believe that the technology 
is available. It may not be optimal, but the technology is 
available to make that happen.
    Mr. Markey. When you say it may not be optimal, what do you 
mean?
    Mr. Stephens. Very similar to what we do with the passenger 
baggage screening. Had we had more time, we would have 
installed the systems inline in the existing baggage systems 
and would not have installed the majority of the equipment in 
airport lobbies.
    Mr. Markey. But you could create the level of security that 
you have for bags.
    Mr. Stephens. Certainly we could.
    Mr. Markey. Is that what you are saying?
    Mr. Stephens. Yes, sir, certainly we could. I think the 
challenge is who is going to pay and I think that is the issue 
that comes back from the aviation industry, in the 
implementation of passenger baggage screening, Congress funded 
taxpayer dollars to go implement that system and it is the same 
sort of issue that I believe the aviation industry faces on the 
cargo side, new requirement, not part of the current market 
situation, so they are looking and saying I have got a revenue 
trade versus an income trade, how do I do I go fund that? And 
so from an implementation standpoint, it is certainly 
implementable. It is a question of where does the funding come 
from.
    Mr. Markey. So each time I get on a plane or you get on a 
plane, there is a little fee?
    Mr. Stephens. That is correct.
    Mr. Markey. That is then pooled in order to create the 
revenue that then pays for this security?
    Mr. Stephens. That is correct.
    Mr. Markey. So you are saying a similar kind of system 
would have to be set up for cargo using cargo as people, saying 
that each piece of cargo, they would--depending on the size and 
weight, et cetera, that there would be a fee that is much like 
you and I have to pay every time we get on and off a plane now.
    Mr. Stephens. Yes, sir. And I believe there will be some 
impacts on the aviation industry about the level of cargo, 
because then the market will look and say, I have an additional 
fee to pay, and I have a decision to make of time value of 
money. Do I need it there tomorrow, or for a lesser fee can I 
ship on another mode of transport? Could be over the rail, 
could be trucks to get there. And you will see that discussion 
going back--.
    Mr. Markey. It doesn't have to be on the passenger plane 
which is leaving at 3:00 this afternoon. It could be on a cargo 
plane that is leaving tomorrow.
    Mr. Stephens. No question about it. That is correct. So I 
think you will get some feedback from the airline industry 
saying by putting those rules in place, you may impact our 
revenue in an already challenging aviation environment, versus 
on the other side it is the free market economy that will 
settle itself out.
    Mr. Markey. But the very same thing that a passenger might 
be trying to sneak on could be snuck on through the cargo right 
now that would pose the same threat to the plane in terms of an 
explosive, not in terms of taking over the plane, but in terms 
of if the passengers wanted to sneak on an explosive, the same 
thing could now happen, but without the screening on the cargo.
    Mr. Stephens. There is certainly that threat, yes, sir.
    Mr. Markey. Well, without screening, you are right. So from 
my perspective, I think that the big argument has been that the 
technology is not there, but the same technology that is used 
or similar technology for passengers today could be used for 
the cargo.
    Mr. Stephens. I would argue the technology is there.
    Mr. Markey. And whose technology is it?
    Mr. Stephens. There are a number of companies that have 
technology. As you may be aware, the systems deployed today are 
made by envision and L3com, but, you know, part of our work, we 
are evaluating and working with the Transportation Security 
Administration, looking at some 30 other companies that are 
offering technology that not only meet the current requirements 
but could potentially enhance it.
    Mr. Markey. Would the technology now purchased for cargo be 
better than the original technology that was purchased for 
passengers because it has evolved just in the 2 years since 
that whole process has begun.
    Mr. Stephens. It has improved.
    Mr. Markey. So it actually could be better perhaps than the 
totality of the passenger cargo today.
    Mr. Stephens. Perhaps.
    Mr. Markey. I thank the Chair. Thank you, sir.
    Ms. Granger. Following up on that, Dr. Gould, have you used 
your formula concerning checked cargo?
    Mr. Gould. No, we have not.
    Ms. Granger. Ms. Lee.
    Ms. Jackson-Lee. I thank the Chair very much, and I thank 
the witnesses with debate on the floor of the House, it allows 
us a little time to spend as much time as we like with the 
witnesses. But I thank you for your testimony.
    Let me try to pose briefly two questions. One, refresh my 
memory on what technology you are now using for interline bags, 
unaccompanied bags. I know that there is technology there, and 
do you think we are at maximum capacity with technology to 
check unaccompanied bags that are going through our airports?
    The other point is that just a couple of days ago we 
discovered that one of the contractors that the Homeland 
Security Department used--it was really the Transportation 
Security Administration--seemingly overbilled the government, I 
would say about $700 million since I work with them and they 
were supposed to recruit those employees that were utilized, or 
are being utilized by TSA. Give us a sense of how we can be 
guided not to be overwhelmed by the many gadgets that the 
government may look at to improve homeland security? What 
should be the litmus test that we should use to ensure that we 
absolutely get the best product for the dollar?
    This is best practices, but what should we be looking at 
and what should be our litmus test? If all the gentlemen could 
answer that. I would ask the distinguished gentlelady if I 
could submit my entire statement into the record, my opening 
statement, and I will conclude with this point as a member of 
the subcommittee and to the ranking member, I believe that this 
is one of the more important committees, not by my presence on 
it but by the fact that we started on 9-11 with the idea of our 
borders being penetrated, whether it was by flight, whether it 
is by other means, we know that the penetration of the border 
either through food, meaning the transportation of food across 
borders, the transportation of people across borders, the 
transportation across arms is truly one of our greatest 
concerns, and so I appreciate this hearing and I appreciate the 
gentlemen in responding to my questions. I thank you.
    Mr. Stephens. If I might from an aviation and checked 
baggage standpoint, it is x-ray technology--does provide three-
dimensional views of what is in the passenger bags themselves.
    Ms. Jackson-Lee. And is that updated technology?
    Mr. Stephens. It is updated technology because it comes in 
two forms. One is the technology itself, but also the software 
algorithms that are used to validate and check the bags, and 
there is an ongoing process to work that. As I mentioned 
earlier, there are additional technologies being evaluated to 
potentially enhance the ability to screen the bags, and that is 
part of an ongoing activity that TSA has that you through their 
laboratories up in Atlantic City.
    Ms. Jackson-Lee. Do you think there should be any litmus 
test for random displays of products from the private sector 
that the government may be looking at to purchase?
    Mr. Stephens. I believe there are, in fact, many companies 
that the government is looking at on a regular basis, and I 
believe those involved in technology, particularly out of the 
technology--the chief technology officer would be prepared to 
walk through a number of details about all the technologies you 
are looking at, because we participate in some of those 
reviews. In my sense it is quite extensive. We get calls and I 
personally get calls on a standard of two to three calls a week 
of companies that are offering technology, and one of our roles 
as a lead systems integrator is to take those calls in, 
evaluate them. We have a fairly extensive process that we use, 
not only on the technology side but also with outside venture 
cap lists to get an independent view, and then based upon that 
we as one company make additional recommendations in the 
Department of Homeland Security to give them thoughts and 
insights about what we think is appropriate, and how it might 
fit in the broader system.
    Ms. Jackson-Lee. Do you think there are procedures in 
place--thank you.
    Mr. Gould. I do have 30 seconds. So I think the large 
systems integrators are playing a vital role in place of 
government to sort through some of the competing technologies 
out there. In our report we suggest five basic criteria to 
guide that investment process. The first being obviously the 
compelling value of the security product or technology. The 
second being an awareness that the public feels that this is a 
problem that needs to be solved. After all, it is their money 
that we are spending. Thirdly, that it offers a unique or 
blocking technology. Fourth is the privacy issue, nonnegative 
impact on privacy. Certainly there is a lot of concern about 
that.
    Chairman Cox mentioned earlier that balance between freedom 
and security. And finally, and perhaps most importantly from 
Captain Salloum's standpoint and others, nonnegative impact on 
operational efficiency. We believe that it is possible to 
construe good homeland security and competitiveness and flow of 
commerce as two components of the same objective function. We 
can be doing both. We ought to be doing both at the same time.
    Ms. Jackson-Lee. Thank you. Yes.
    Mr. Salloum. Definitely tracking devices are important, and 
scanning is definitely also important, but I believe this is 
not it. What we need--as there is a lot of effort from the 
official side to protect our borders, I believe we need another 
source of information from the private sectors, and then we 
will have two sources of information so we can cross-check 
these data and then we can flag a specific shipment or 
enterprise. So the key is to keep doing what we are doing from 
the official side, but we need to encourage private companies 
to go--like we say, initially on a system like the airline 
industry system like Saber, but for the cargo. This will be a 
source of data for us so we can cross-check this data and flag 
the specific shipment and enterprises.
    Ms. Jackson-Lee. I thank you.
    To the distinguished chairwoman, let me just say that this 
is an important hearing, and one of the things I am not sure 
whether the other members focused on that I hope we can discuss 
is the kinds of private security products, if you will, or 
individual security products--I am not talking about an alarm 
in your home--that many of our constituents are being bombarded 
with, and the question is whether homeland security engages in 
setting some kind of litmus test or helping analyzing of 
technology, because more and more individuals, communities, 
homes are looking to buy all kinds of gadgets that came about 
after 9/11, and I think it is crucial that as we secure the 
homeland, that we provide some sort of standards to guide those 
who are attempting to secure their families and their 
communities.
    Ms. Granger. Thank you.
    One short question, Ms. Sanchez.
    Ms. Sanchez. Dr. Gould, you just mentioned in the list of 
four or five that you gave the number two was the public 
perception. Can you just expand on that a little bit, because 
as politicians, we are always looking at public perception, but 
it is interesting to hear from your end that you think we 
should be investing in something that the public thinks is 
important when it may not be?
    Ms. Granger. Very quickly. We have 7 minutes.
    Mr. Gould. Certainly. And in one minute, I absolutely do 
believe that that critical set of permissions that the media 
occasionally offers Congress as a set of permissions or 
awareness to identify the problem, to recognize that it is a 
problem out there, that there is a matching solution with it 
and sort of brick it into the deliberative process here in the 
Hill is actually a vital component of how small companies and 
medium-sized companies are trying to enter this mark. They 
recognize that your engagement on these issues is critical in 
making some of these new solutions a possibility in the market, 
because frankly the large systems integrators and others are 
buried.
    Steve just--Rick just mentioned that he is bombarded, 
several calls a week. There is a tremendous volume of companies 
trying to break through that, and this is one of the ways that 
that can--.
    Ms. Granger. Thank you. I am going to have to stop you now. 
I thank the panel for their testimony. There being no further 
business before the subcommittee, I thank our witnesses today. 
Our hearing is now adjourned.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
